<html>
<title> - [H.A.S.C. No. 113-27]NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-27] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                        BUDGET REQUEST FROM THE

                      DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                             APRIL 12, 2013


                                     
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

80-756 PDF                       WASHINGTON : 2013 



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                        Michele Pearce, Counsel
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Friday, April 12, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request from the Department of the Air 
  Force..........................................................     1

Appendix:

Friday, April 12, 2013...........................................    35
                              ----------                              

                         FRIDAY, APRIL 12, 2013
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Donley, Hon. Michael B., Secretary of the Air Force..............     3
Welsh, Gen Mark A., III, USAF, Chief of Staff, U.S. Air Force....     8

                                APPENDIX

Prepared Statements:

    Donley, Hon. Michael B., joint with Gen. Mark A. Welsh III...    42
    McKeon, Hon. Howard P. ``Buck,''.............................    39
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Enyart...................................................    79
    Mr. Johnson..................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    93
    Mr. Bridenstine..............................................    91
    Mr. Brooks...................................................    90
    Mr. Carson...................................................    88
    Mr. Enyart...................................................    89
    Mr. Franks...................................................    87
    Mr. Langevin.................................................    83
    Mr. LoBiondo.................................................    83
    Mr. Miller...................................................    83
    Mrs. Noem....................................................    93
    Mr. Nugent...................................................    91
    Mr. Palazzo..................................................    92
    Mr. Scott....................................................    89
    Mr. Shuster..................................................    88
    Mr. Turner...................................................    86
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Friday, April 12, 2013.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning. The committee meets today to receive 
testimony on the President's fiscal year 2014 budget request 
for the Department of the Air Force. I am pleased to welcome 
Secretary Donley and General Welsh.
    It takes great leadership to guide people through the kind 
of uncertainty we have been experiencing, and our Nation is 
fortunate to have you as our Nation's flight leads. Thank you 
for your outstanding service as you tackle the incredible 
national security issues we face.
    After reading your budget materials, I was struck by the 
fact that in fiscal year 2013, your Active Duty end strength 
was 329,500 men and women, a number which makes the Air Force 
about the same size it was when it became a separate component 
in 1947, and yet the world is certainly a different place 
today.
    Your fiscal year 2014 request reduces end strength to 
327,600. I worry about this, especially as we consider the 
strategic implications of recent events on the Korean Peninsula 
where airpower plays such a critical role in assuring our 
national security interests.
    As you say in the budget materials, you are attempting to 
trade size for quality, but quantity often has a quality all of 
its own, particularly in the vast expanse of the Pacific. You 
know, when Admiral Locklear was here a few weeks ago, he 
pointed out to us that if you take the size of the Pacific, you 
could put all the land mass in that space and still have room 
left over for, I believe he said, Africa and Australia. Pretty 
big area.
    At some point we almost recognize that the assumption of 
mission risk will be too great. I hope that you will highlight 
your concerns regarding this issue in your testimony and 
provide more detail about where you see this trend going into 
the future. I also hope you will discuss the recent 
announcement at unit standdowns across the Air Force and its 
implications for force readiness.
    You know, I think this committee is well aware of these 
problems, but I don't think the whole Congress is, and I am 
convinced that the Nation really doesn't understand the 
severity of the cuts that we have been imposing. It could take 
years to recover from this decision because your people won't 
be able to train. This complicates an already seemingly 
untenable situation after nearly two decades of procurement, 
reductions, or deferrals for the Air Force and the resulting 
risks of maintaining an aged fleet of aircraft.
    With pilots not training, depot maintenance not being done, 
and the continued reduction of new aircraft procurement, we 
must ask ourselves where is the breaking point, and what we 
need to do to prevent it, how much risk is too much.
    I am encouraged by the request for the Air Force's three 
most important modernization program, the KC-46A tanker, the F-
35A [Lightning II Joint Strike Fighter], and the Long-Range 
Strike Bomber, but those programs are budgeted to stay on 
track, but the effects of sequestration in fiscal year 2013 
could result in a potential $1.6 billion bow wave in research, 
development tests and evaluation, and a $1.3 billion bow wave 
in procurement.
    The fiscal year 2014 budget request does not provide any 
margin to repay programs that will be sourced to pay for 
critical readiness in fiscal year 2013. Air Force modernization 
cannot wait for the next big uptick in defense spending. We are 
in a difficult time, and we must make hard choices. Your 
testimony today will go a long way to help this committee and 
others in Congress make the right choices.
    Again, thank you very much for being here.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]
    The Chairman. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I think the chairman has summed up quite well the 
challenges that you face. And we are all familiar with the 
impacts of sequestration, or I should say we are familiar with 
the fact that it did make things very difficult. The particular 
impacts are still being sorted out, I mean, literally on a day-
by-day, if not hour-by-hour basis by all of our Services, and, 
of course, outside of the Department of Defense all aspects of 
the Government that are impacted by sequestration, and that is 
the great challenge. Given the defense threat environment that 
we have out there, which is not shrinking, it may be shifting 
and changing, but it is certainly not shrinking, how do we meet 
those threats? How do we budget? How do we plan in this 
uncertain environment?
    We have heard some about some of the changes the Air Force 
had made, the air wings, bomber wings that you have had to 
stand down, and I think what we are going to be most interested 
in throughout this hearing is how you plan to manage through 
that process.
    Again, I will just take this opportunity to emphasize that 
as a Congress, we need to stop sequestration. However we put it 
together, whatever the agreement is, mindless across-the-board 
cuts is simply the wrong way to run a government, you know. We 
can find ways to save that money, gosh, even within the 
discretionary budget a lot smarter than we are doing so right 
now, and I think a sense of urgency is simply not where it 
should be with this Congress to fix that problem.
    But we look forward to your testimony, Secretary Donley and 
General Welsh. You have served this country very, very well. We 
appreciate your hard work, and please let us know how you are 
dealing with this challenge and what we might be able to do to 
help.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Mr. Secretary.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Mr. Chairman, Ranking Member Smith, 
members of the committee, it is a pleasure to be here again 
representing our Active Duty, Guard, Reserve, and civilian 
airmen. I am also honored to be here with my teammate, the 20th 
Chief of Staff of the Air Force, General Mark Welsh.
    For fiscal year 2014, United States Air Force requests 
$114.1 billion in our baseline budget. As with all budgets, our 
fiscal year 2014 request represents a snapshot in time, our 
best analysis of Air Force needs based on available 
information, and especially given the budget turmoil over the 
past year, this morning's discussion on the fiscal year 2014 
budget needs to begin with where we stand this year in fiscal 
year 2013.
    First, I would like to highlight that throughout the 
current budget turmoil, our Air Force priorities remain aligned 
with the January 2012 defense strategic guidance. This includes 
supporting combatant commanders in the current fight in 
Afghanistan, maintaining a strong and stable presence in the 
Pacific and Korea, supporting nuclear and regional deterrents, 
counterterror, and other operations.
    There is demand for airpower, and your airmen are busy 
around the world. Today more than 35,000 airmen are deployed, 
more than 57,000 are stationed overseas, and more than 132,000 
are providing support to combatant commanders. And as the 
fiscal constraints get tighter, we must tighten our alignment 
with a new strategy and strengthen our commitment to joint 
interdependent solutions to the Nation's military challenges.
    You have heard many times that the implications of 
sequestration reductions are dire. They are. That is why the 
President has put forth a balanced deficit reduction proposal 
that would allow Congress to repeal sequestration in fiscal 
year 2013 and beyond.
    While the Department is working full out to adapt to the 
new fiscal realities, it was not possible, given the necessary 
timelines, to turn around a new fiscal year 2014 budget based 
upon new assumptions derived from the March 1st sequestration 
and from the final Defense Appropriations Act, also approved 
last month, nearly 6 months into fiscal year 2013.
    We need to stipulate up front that the fiscal year 2014 
budget does not provide funding to recover from the damage done 
by even a partial year of fiscal year 2013 sequestration, much 
less the full impacts that would hit the Air Force if the 
President's proposal to replace sequestration for fiscal year 
2013 and beyond is not enacted.
    This morning I will summarize the state of the Air Force in 
three broad areas: force structure, that is, the size and 
composition of our Air Force; readiness, that is the training, 
preparedness of our airmen and their equipment; and 
modernization, the replacement of aging aircraft and 
infrastructure, and our investment in future capabilities.
    First, force structure. Last year in our efforts to meet 
the requirements of the first half of the Budget Control Act 
involving reductions of 487 billion over the--over 10 years, 
the Air Force's fiscal year 2013 budget proposed a number of 
force structure changes, including aircraft transfers, 
retirements, and changes in unit missions that were the subject 
of much controversy in our Reserve Components with the State 
Adjutants General and congressional delegations.
    Thanks to the work of this committee and others, we were 
able to fashion a compromise, which you approved in the 
National Defense Authorization Act. This year I can report that 
the fiscal year 2014 budget proposes no major changes in force 
structure. As compared to the levels enacted in the fiscal year 
2013 NDAA [National Defense Authorization Act], the fiscal year 
2014 proposal would reduce Active Duty end strength by about 
1,800 Active Duty airmen, reduce Air Force Reserve end strength 
by just under 500, and reduce National Guard end strength by 
300.
    We retain C-130 [Hercules tactical airlifter] and Global 
Hawk Block 30 [RQ-4 surveillance unmanned aerial vehicle] force 
structure, as you directed, through fiscal year 2014. Our 
nuclear forces remain at current levels, pending future 
decisions on implementation of the New START [Strategic Arms 
Reduction Treaty] agreement, and we are on track to achieve 65 
medium-altitude combat air patrols with our remotely piloted 
aircraft fleet.
    We will focus in fiscal year 2014 on implementing the 
retirements, transfers, and mission changes that you approved 
in the NDAA, and then we have provided two reports to Congress 
outlining implementation plans for each affected unit and 
location.
    Looking ahead, it has never been more important for the Air 
Force to maximize the strength of our Total Force. Our Active, 
Reserve, and Air Guard Components are increasingly integrated, 
training, deploying, and conducting a full range of missions 
together as a Total Force. We must continue to ensure that our 
Active/Reserve Component mix correctly balances the strengths 
of each Component and meets our strategic requirements and 
fiscal demands.
    We have made progress over the last year in our 
governmental relationships, working with DOD [Department of 
Defense] and the Council of Governors to formalize the 
consultative process between DOD and the States to provide more 
transparency in planning and programming.
    Within the Air Force, working with our Guard and Reserve 
Air Force leaders, General Welsh and I have established a Total 
Force Task Force to provide strategic options on the 
appropriate mix of Total Force capabilities, and to inform our 
strategic planning for fiscal year 2015 and beyond. This task 
force will also serve as a resource to the congressionally 
directed National Commission on the Structure of the Air Force 
that is standing up this month.
    In summary, our proposed force structure is relatively 
stable for now, but, beyond fiscal year 2014, is dependent on 
decisions yet to be made and especially on achieving a balanced 
approach to deficit reduction to avoid further sequestration.
    Turning to readiness. While the Air Force has met the 
demands of a high operational tempo in support of today's 
fight, this has taken a toll on our weapons systems and people. 
Unit readiness declined significantly from 2003 onward, and 
despite significant investments in the past few years, only 
half of our combat air forces have met acceptable readiness 
standards.
    With the rebalance to the Asia-Pacific and our continued 
presence in the Middle East and Africa, we expect the demand 
for Air Force capabilities will remain constant, perhaps even 
increase over the next decade. We must improve readiness to 
prevent a hollow force.
    With respect to fiscal year 2013, the Joint Chiefs of Staff 
and Air Force leaders have already recounted the readiness 
impacts we anticipated this year as a result of sequestration. 
Passage of the final fiscal year 2013 continuing resolution, 
which included defense appropriations, was helpful to DOD 
overall, but did not improve the Active Air Force's operation 
and maintenance budget, left shortages in the overseas 
contingency operations accounts, and did not mitigate the 
impacts of sequestration, which required approximately 10 
billion in reductions to be taken in the last 7 months of 
fiscal year 2013.
    Except anticipating this challenge, we took steps to cut 
back normal operations, including a civilian hiring freeze for 
permanent, temporary, and term vacancies; canceling non-
mission-critical official travel and conferences; reducing 
major command and combatant command O&M [Operations and 
Maintenance] budgets by approximately 10 percent; and deferring 
non emergency facilities sustainment projects. However, these 
steps alone are not sufficient to absorb the full impacts of 
sequestration without affecting readiness.
    Collectively, the sequestration reductions and readiness 
impacts are now being felt across the Air Force. This week 
eight fighter and bomber units ceased flying operations, four 
additional squadrons will completely stand down when return 
from deployment in the next few weeks, and one additional 
bomber squadron will stand down this summer when it returns 
from deployment.
    Flying hour reductions will halt training for the rest of 
the year in many units and will take up to 6 months to restore 
pilot proficiency. Other impacts include reductions in weapon 
systems sustainment that will delay necessary maintenance, 
increase costs and take potentially 2 to 3 years to recover 
from repair backlogs. And there is the potential furlough of 
our valued civilian workforce, significantly reducing their pay 
and potentially devastating morale and slowing productivity.
    Our main objective in the fiscal year 2014 budget mirrors 
our objective for 3 years running: to slow and reverse the 
erosion of Air Force readiness. To that end the fiscal year 
2014 budget is aimed at setting the Air Force back on a course 
toward full-spectrum readiness. The budget prioritizes funds 
for 1.2 million flying hours, an increase of 40,000 hours from 
last year, to ensure pilot proficiency and continue new pilot 
production. It funds training ranges to enhance flying training 
effectiveness and to restore infrastructure. It also adds 1.5 
billion across the 5-year defense plan to weapons systems 
sustainment to keep our aircraft and space systems ready.
    Unfortunately, fiscal year 2013 sequestration now 
jeopardizes the gains we had hoped to achieve next year. Even 
assuming this budget is approved as proposed, and even if the 
Congress acted sometime this summer to repeal and replace 
sequestration in fiscal year 2013, we would almost certainly 
begin fiscal year 2014 carrying forward a significantly 
degraded readiness posture from this year.
    The Air Force is working with DOD on a fiscal year 2013 
reprogramming requests to indicate OCO [Overseas Contingency 
Operations] and other O&M shortfalls and to address some of the 
worst effects of sequestration. However, the budgetary transfer 
authority available to DOD is not sufficient to address all our 
known shortfalls. Even if such transfer authority were 
available, we do not have sufficient internal resources to pay 
for these shortfalls without digging far too deeply into 
modernization programs, and there may not be sufficient time 
left in fiscal year 2013 to repair the damage now immediately 
ahead.
    To sum up the readiness situation, we have been consuming 
Air Force readiness for several years and will continue to 
focus the resources available to meet combatant commander 
requirements, but with the steep and late fiscal year 2013 
budget reductions brought on by sequestration, the readiness 
hole that we have been trying to climb out of just got deeper.
    The full readiness and budgetary implications of this 
situation could not be accounted for in the fiscal year 2014 
budget and are still under review, and we will continue to work 
with DOD and Congress to fashion a practical way forward.
    Turning to modernization. As I previously testified to this 
committee, the modernization challenge facing the Air Force is 
pervasive and will, if unaddressed, seriously undermine our 
ability to accomplish the missions the Nation asks us to 
undertake. The average age of our fighter aircraft is now 23 
years; rescue helicopters, 22 years; training aircraft, 25 
years; bombers, 36 years; and tankers, nearly 50 years. 
Satellites for missile warning, navigation, secure 
communications, and other needs are also aging, and the 
replacements must be built and launched on a schedule 
consistent with the life expectancy of current constellations.
    Our most significant Air Force priorities remain on track 
in fiscal year 2014, the fifth-generation F-35 Joint Strike 
Fighter, the KC-46 tanker, the Long-Range Strike Bomber. The 
continued modernization of existing fleets, such as the B-2 
[Spirit stealth bomber], the F-22 [Raptor fighter jet], F-15 
[Eagle fighter jet], F-16 [Fighting Falcon fighter jet], and C-
17 [Globemaster III tactical airlifter], to name some, to keep 
them operationally effective and to extend their service lives 
is also key.
    We request funding for preferred munitions as well as 
critical space satellite assets, such as the Global Positioning 
System, the Advanced Extremely High-Frequency, AEHF, Satellite, 
and Space-Based Infrared System programs. We intend to maintain 
science and technology funding in order to stay on the cutting 
edge of technological innovation and sustain our airpower 
advantage.
    While we often face challenges with major acquisition 
programs, we have recently achieved some notable success using 
block buys and more efficient procurement strategies to drive 
down the cost of three large space programs by over $2.5 
billion. And the fiscal year 2014 request includes the first of 
a multiyear procurement for the C-130J, which is expected to 
save over 500 million over the next 5 years. We will need more 
successes like these in the future because there is still 
significant pressure on our modernization programs.
    Last year, in programming the Air Force share of the first 
$487 billion in DOD reductions over 10 years, the cancellation 
or delay of modernization programs accounted for 65 percent of 
total Air Force reductions across just the first 5 years. This 
year each program was reduced by more than 7 percent in 
sequestration. In the immediate years ahead, major programs 
like the F-35, the KC-46, and the bomber are scheduled to grow 
as the overall DOD budget declines, and some longstanding needs 
like a new trainer and a replacement for the E-8 JSTARS [Joint 
Surveillance Target Attack Radar System] remain unfunded.
    Looking ahead, if there continues to be resistance to force 
structure adjustments, base closures, and constraining growth 
and compensation, and given our current need to focus on 
improving readiness, it is very likely that outyear reductions 
in the Budget Control Act will require further disproportionate 
cuts in our modernization programs.
    As advanced technologies continue to proliferate around the 
globe, these cutbacks in modernization would put at risk the 
Air Force capabilities this Nation will need in the decade 
ahead. The decisions ahead of us are extraordinarily difficult, 
but Congress has the power to help the Air Force and the 
Department of Defense maneuver through these unparalleled 
budget challenges. In recent years Congress has placed limits 
on the Air Force's effort to take tough, but urgently needed 
actions to balance our readiness, modernization, and force 
structure, and rejected some of DOD's proposals to help slow 
the growth in military compensation.
    As our DOD leaders have testified, these congressional 
actions, if sustained, would add billions to our costs over the 
next 5 years. We hope that in view of the serious economic 
problems facing the Nation and our Department of Defense, 
Congress will allow us to implement these and other important 
changes.
    It is now all the more critical that we get your support 
for reductions in base infrastructure. The Air Force executed 
BRAC [Base Realignment and Closure] 2005 on time and under 
budget, and those adjustments are today generating savings 
estimated at $1 billion per year. We are looking at European 
basing requirements with our DOD partners, and we are ready to 
begin next steps in the continental U.S. We estimate that more 
than 20 percent of our basing infrastructure is excess to need. 
BRAC authority is a tool that we urgently need to allow DOD to 
divest excess infrastructure and refocus resources to meet 
other critical needs, including readiness, modernization, and 
taking care of our people.
    In the area of military compensation, we are committed, as 
you are, to taking care of our airmen, but the impact of 
increasing personnel costs continues to be a concern in the 
Department and can no longer be ignored. Therefore, we support 
DOD's efforts to slow the growth of personnel costs. We support 
the modest 1-percent pay raise and the TRICARE [health care 
program] fee and pharmacy copay changes included in the fiscal 
year 2014 budget.
    While these are some of the broad outlines of our request, 
there is clearly more work to do as we assess the rolling 
implications of sequestration in fiscal year 2013 and beyond. 
We will need your help to make necessary adjustments in our 
force structure, to keep us ready, and to avoid a hollow force, 
and to equip this Air Force with the modern capabilities it 
needs for the future.
    But perhaps one of the most helpful things Congress can do 
is to return to regular order and approve the annual defense 
authorization appropriations measures in a timely way. 
Throughout history our Nation has effectively dealt with 
strategic challenges and fiscal constraints, but our recent 
track record of delay and uncertainty, continuing resolutions 
that disrupt programs and budget planning, and midyear cuts 
that impair readiness and threaten civilian furloughs must not 
become the new normal. We sincerely appreciate the ongoing 
commitment and efforts of this committee and its professional 
staff to return to regular order.
    Today's world is a dangerous place, and it is 
counterproductive to generate problems of our own making when 
so many other serious threats beyond our control demand 
attention. Together we must do better for our men and women in 
uniform and their families, our civilian workforce, and for our 
national security.
    Mr. Chairman, the American people have the world's best 
airmen and the world's finest Air Force. Your Air Force 
leadership team remains committed to you and the most 
capability possible from whatever level of resources you 
provide. We remain grateful for the support of this committee 
and its unfailing support in providing to the Air Force and to 
the men and women of our Armed Forces the best capabilities 
available. We stand ready to assist in any way we can and look 
forward to discussing our budget. Thank you.
    [The joint prepared statement of Secretary Donley and 
General Welsh can be found in the Appendix on page 42.]
    The Chairman. Thank you.
    General Welsh.

STATEMENT OF GEN MARK A. WELSH III, USAF, CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Smith, and distinguished members of the committee, for letting 
us be here this morning. It is always an honor, and it is a 
special privilege to be here with my boss and partner, 
Secretary Mike Donley, who is coming up on about 5 years 
running our Air Force, a long road, and he has done it 
tremendously well.
    Despite the budgetary turbulence and what I hope will be an 
atypical year, I believe we will see a continuing demand for 
American airpower in the future. From the airlift requirements 
of a responsible drawdown in Afghanistan to, as the chairman 
mentioned, the vast distances and increasingly vocal 
international actors in the Asia-Pacific region to growing 
national reliance on space-based capabilities, America's 
foreign policy choices reflect a conscious reliance on its Air 
Force to help realize success.
    These strategic choices followed 22 years of sustained 
combat operations for your Air Force and a slow decline of 
readiness that we simply must reverse. These choices are also 
bounded by shifting fiscal realities that will force the entire 
Defense Department to focus on those capabilities and missions 
that are truly essential in the future.
    As an indispensable part of that joint force, the Air Force 
intends to continue operating in airspace and cyber, and to 
prioritize those core missions that have existed since our 
birth as a separate service in 1947: air and now space 
superiority; rapid global mobility; intelligence, surveillance, 
and reconnaissance; global strike; and command and control at 
the theater level. Our airmen perform these missions 
exceptionally well, and, in doing so, they do provide global 
vigilance, global reach, and global power for America.
    Out fiscal year 2014 budget request does not fully account 
for necessary recovery actions from the current budgetary 
turbulence, nor does it fully incorporate the potential cuts 
for sequestration in 2014 and beyond, but what it does do is 
prioritize the effort to reverse our declining readiness trend, 
recognizing that low states of readiness negate many of the 
strategic advantages of airpower.
    Flying hours are allocated to maintain and, in some cases, 
incrementally improve readiness levels across the Total Force 
in this budget. In the past we have relied on overseas 
contingency operations funding to partially fund those flying 
hour programs and to maintain our current and substandard 
readiness levels. We will continue to reduce our reliance on 
that OCO funding for the flying hour program through 2015, at 
which point we should have as much as 90 percent of our 
peacetime flying requirement back in our baseline budget, a 
level we haven't reached in quite some time. We have also 
restored emphasis on training ranges, funding about 75 percent 
of the requirement in that area, up from recent lows of only 25 
percent.
    Our fiscal year 2014 budget request also seeks to corral 
the force structure cost creep in both personnel and 
infrastructure that we have been experiencing. After years of 
trading quantity for quality, we now have fewer people in 
aircraft in our Air Force than at any time since we became an 
independent service in 1947.
    Unfortunately, while the numbers have gone down, both the 
real cost of personnel and their proportion relative to rest of 
the budget has increased dramatically. Pay and benefits 
continue to rise, as have the costs of the Defense Department 
health care program, which has grown approximately 270 percent 
over the last 11 years, and, as we all know, these are huge 
cost drivers. They scream for more control.
    We support the Defense Department's request to limit the 
military pay raise to only 1 percent in this budget proposal 
and to explore meaningful modifications in the TRICARE system. 
As a side note, we may also realize personnel cost savings from 
the Total Force Task Force that the Secretary mentioned. This 
group was formed to examine the operational impacts and cost 
factors associated with various approaches to Total Force 
integration. By identifying and implementing the optimum force 
mix of an Active, Reserve, and Guard Component, we should be 
able to maximize operational effectiveness, better optimize 
Total Force efficiencies, and provide better stability over 
time to our Guard unit States and Reserve organizations. You 
can expect to see the results of this work reflected in next 
year's budget submission.
    Our fiscal year 2014 budget request also restores military 
construction investment to historic norms, following our 
deliberate infrastructure pause in fiscal year 2013. The $1.2 
billion proposal in this area prioritizes bed-down requirements 
for the KC-46 and the F-35, for combatant commander nuclear 
deterrent and cyber requirements, and for projects to 
facilitate a rebalance of the Asia-Pacific region. We will look 
to consolidate infrastructure and reduce excess capacity where 
allowed, and we support the Defense Department's request for 
further BRAC authority in fiscal year 2015.
    As difficult as a BRAC would be for everyone, we can simply 
no longer afford to retain unnecessary overhead that diverts 
precious resources from readiness and modernization. Our fiscal 
year 2014 budget request strives to protect that modernization 
in order to support current defense guidance and to preserve 
the ability to execute our core missions in the future.
    The KC-46, F-35, and Long-Range Strike Bomber remain our 
top three investment priorities. We need the F-35. It remains 
the best platform to address the proliferation of highly 
capable integrated air defenses and new air-to-air threats. The 
Long-Range Strike Bomber will give our Nation a flexible, 
credible capability to strike globally with precision on 
limited notice should the national interest require.
    The KC-46 is our highest modernization priority and will 
ultimately replace a third of our current tanker fleet, most of 
which is almost as old Secretary Donley. Hard to believe, I 
know. That tanker fleet puts the ``global'' in global 
vigilance, global reach, and global power. It provides 
strategic options for our Nation. We simply must modernize it.
    Four of the Air Force's 10 largest modernization programs 
are space-based platforms. We plan to extend our streak of 58 
consecutive successful launches, and expand and modernize our 
constellations, like the Global Positioning System, the Defense 
Meteorological Satellite program, and others upon which the 
entire Nation and many of our allies and partners depend.
    We will also continue to invest in our most important 
resource, our airmen. We will provide the training, education, 
and professional development opportunities they need to be the 
best in the world at what they do. If we can't do that, they 
will find other work.
    We will continue to foster work environments that are safe 
and respectful. We will develop leaders of character who 
demonstrate operational effectiveness and innovation, but also 
the selfless, caring approach required to lead America's sons 
and daughters.
    We will continue to do everything in our power to care for 
our airmen and their families, while balancing the resources 
required to do that with the understanding that our primary job 
is to fight and win the Nation's wars.
    My job is to help Secretary Donley field the most capable, 
credible Air Force possible. I believe our 2014 budget request 
moves us in that direction. It postures the Air Force to 
improve readiness, to limit force structure cost, and to 
protect vital modernization, and Secretary Donley and I stand 
ready to answer any questions you may have about it.
    Thank you again for the chance to be here, Mr. Chairman.
    The Chairman. Thank you very much.
    I am glad the tankers are only as old as Secretary Donley. 
If they were my age, we would really have problems.
    Gentlemen, I am fully aware that without the equipment, 
aircraft space systems and networks, we have no Air Force. Air 
and space forces, more so than ground forces, require materiel 
and technology to execute the mission. Investments in RDT&E 
[Research, Development, Testing, and Evaluation] and 
procurement during the Cold War provided the Air Force with 
much of the equipment that it is using today; however, all of 
this equipment is aging out, and it is aging out 
simultaneously, because many procurement and modernization 
programs failed, were delayed, or were deferred during the past 
15 years.
    The Air Force needs to simultaneously recapitalize across 
major categories of capabilities. There is great risk that the 
effort is unsupportable in the current fiscal environment.
    How is it that with all the efforts and emphasis on 
reforming the acquisition process, to include Secretary Hagel's 
recent remarks at NDU [National Defense University] on the 
matter, we haven't had a confirmed senior acquisition executive 
for the United States Air Force since 2009? All the while we 
continue to see Air Force acquisition failures, such as over a 
billion dollars wasted on a failed logistics program known as 
ECSS [Expeditionary Combat Support System], more than $750 
million wasted on C-27J [Spartan military transport] aircraft, 
a DOD IG [Inspector General] investigation and subsequent 
cancellation of the G222 airlifter acquisition for the Afghans 
at a price of over $600 million, and GAO [Government 
Accountability Office] protests and court proceedings on the 
Light Attack Aircraft program for the Afghans.
    Please tell me what your plan is to remedy this egregious 
situation.
    Secretary Donley. Well, first, Mr. Chairman, regarding the 
absence of a confirmed acquisition official, we had had in 
place a very capable principal deputy for 2 years of that 
period, and since his departure last year, we have been looking 
for a replacement. I do believe we have a candidate lined up 
who will be in place within the next month or so. So, this has 
been more a product of the personnel process than from a lack 
of interest in filling the position on our part. We have had 
several candidates. We have discussed who we have identified 
along the way who have been unable to step up to the 
requirements of leaving their corporate position to spend time 
in Government. So it has been a lengthy process, certainly 
longer than I would have liked.
    We have undertaken a number of acquisition improvements in 
the Air Force, as I offered. We have made great progress on 
controlling the costs of our space programs over the past 
several years, some of our largest programs and the ones that 
had the largest cost growth in the early 2000s, so there has 
been some progress there.
    With respect to ECSS, which was one program that was 
canceled last December, we have no apologies for that. We had 
been working on the program for 7 years. We could have done 
better up front in having the right technical expertise on that 
program, more oversight from our logistics team and logistics 
experts on the contractor team. That program went through 
multiple restructurings over 7 years until we finally got to a 
point where it was just unacceptable to proceed. So we have no 
hesitation in canceling programs that are not performing.
    The G222 falls in the same category. This was a version of 
the C-27 program, earlier version of the C-20 program that had 
been purchased for the Afghan Air Force, again at some expense 
to the American taxpayers, where the contractor simply did not 
perform over several years, and we reached a point where we 
viewed that performance by that contractor and that airframe to 
be unrecoverable. And, again, we have no hesitation in stopping 
a program that we don't think is working correctly.
    The Chairman. That is a good point, and I think it is very 
important to stop programs that aren't performing. I think my 
criticism would be--and this is not just the Air Force, it is 
across the whole Pentagon--is sometimes we take too long to 
make the decision to cancel it. If we could identify the 
problems earlier, like the marine landing vehicle that we went 
20 years, I think that is important.
    The comment you made on the problem with getting people, if 
there is something we can do to help you on that as we go 
through our bill this year, if you can think of anything that 
we could do that could make it easier to bring people into--I 
realize it is a sacrifice for a lot of these people to come to 
work, such as yourself. They can make more money on the 
outside, and then the complications that they have to go 
through, the things they have to comply with to work for the 
Government makes it almost too big of a burden for--to even ask 
people to undertake, but if there is something we could do, 
please, please let us know on that.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just two questions, one on the KC-46. I know the new 
tanker. I know there was an issue about whether or not the 
contract, given sequestration, you would be able to continue 
with the contract. That was really important that you got an 
appropriations bill this year, which after a fashion we got. Is 
the existing contract on that new tanker sustainable now based 
on where we are at, admittedly not predicting for the future 
here, but based on where we are at for fiscal year 2013?
    Secretary Donley. Yes, sir.
    Mr. Smith. Okay. And then on BRAC, you know, it is sort of 
self-evident when you look at how the military is going to 
change as the budgets have come down with sequestration, you 
know, drawdown from Iraq, drawdown from Afghanistan, the 
fundamental changes that are happening in our strategy, do we 
need to realign our base structure? I don't think there is any 
question about that. You know, Members are understandably 
nervous about that because it affects individual districts in 
unpredictable ways.
    One of the criticisms of it--and I am a strong supporter of 
base closure. You know, BRAC, however you want to get there, it 
needs to be done in order to get our force in the right 
structure and to save the money that needs to be saved. One of 
the problems, of course, is that BRAC actually winds up costing 
money in the first 5 to 6 years, depending on the BRAC. So 
within the BCA [Budget Control Act] timeframe, if you do a 2015 
BRAC, it doesn't actually save you money for those 10 years.
    Can you please, you know, give us your justification for 
doing a BRAC in that timeframe despite that reality, and also 
what you might be able to do to make it less costly this time?
    Secretary Donley. Well, sir, the costs of BRAC vary 
significantly, depending on how you approach the problem. If 
you are just trying to realign forces from point A to point B, 
or if you are actually able to close locations, bring down 
force structure at the same time, that involves much less cost. 
So depends how you are able to approach BRAC----
    Mr. Smith. So, do you envision then a BRAC process that 
could save money within the BCA timeframe?
    Secretary Donley. I don't see why not, if we get started on 
it. Just to give you an example, on BRAC 2005, we spent about 
$3.5 billion, and, as I indicated in testimony, it has 
generated savings now of about a billion dollars a year, so 
that will pay back in 3 or 4 years. So I think that is an 
investment well worth making.
    I also think that beyond the 10-year period, if you just--
--
    Mr. Smith. Absolutely.
    Secretary Donley. Yeah, if you just think about the places 
you have never heard of, Castle, Williams, Hamilton, places 
from deep in the Air Force's past, there are dozens of them 
because DOD, Air Force, and congressional leadership stood up 
to close those bases decades ago. If we were carrying that 
overhead with us today, we would have enormous costs.
    Mr. Smith. No, I think that is absolutely true. I think 
long-term there is no question. The main thing you need to work 
on in terms of making the pitch is to show how it--you know, 
within the BCA timeframe, how you can do it more cost-
effectively.
    Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here.
    You have certainly got a very challenging situation. We all 
do. I was very pleased to see that you followed the guidance of 
the fiscal year 2013 NDAA and provided us with the budget 
breakout for the air and space control alert mission. That was 
really a long time in coming.
    However, in the missions fiscal year 2014 budget, there was 
no request for MILCON [Military Construction] projects, and I 
find this concerning and troubling, because, as you may recall, 
there was House report language for the fiscal year 2013 MILCON 
and VA [Veterans Affairs] appropriation bill that stated 
opposite. It pretty much said that the committee recognized the 
strategic importance of Air Guard Components of the ACA 
[Aerospace Control Alert] mission and their role in the 
country's homeland defense, and the committee urges the 
Secretary of the Air Force to reprioritize its investments and 
place the maintenance facilities for legacy F-16 fighter 
aircraft with ACA missions that are responsible for high-value 
metropolitan areas at the top of the military construction 
list.
    Now, listening very carefully to your opening statement, 
Mr. Secretary, you stated that it is a priority of yours to 
keep operationally effective the legacy assets, and certainly 
of all the alert missions in the country, the 177th Fighter 
Wing fits your criteria for a prime metropolitan facility. 
There is no other facility in the Nation that, when alerted, 
can be over top of Washington, D.C., or New York simultaneously 
if necessary in 9 minutes or less. So that having been said, I 
have to believe that there was an oversight that in the MILCON, 
the new fuel cell and corrosion control hangar was not put in 
fiscal year 2014, but rather let go to fiscal year 2017, 
especially since in the reprioritization of the F-16 fighter 
aircraft, we looked at, because another base is going to be 
drawing down, that the 177th will be receiving newer legacy 
aircraft.
    So, I am hopeful, in light of what I think is an oversight, 
that you can agree to work with our office and work with the 
wing commander to see if there isn't something we can do that 
seems like it would meet with what your request in priorities 
are.
    Secretary Donley. Thanks for that input, sir. I will just 
offer that we are way behind on MILCON, so the focus is new 
mission capabilities that are right out in front of us, F-35, 
tanker, some immediate operational things at locations like 
Guam. And last year was our lowest year almost on record for 
MILCON, so we are just in the process of recovery. We are not 
nearly where we want to be, but we understand the priorities as 
you see them.
    Mr. LoBiondo. Can we count on at least some dialogue in 
attempting to work together considering the high priority that 
you placed on the metropolitan bases?
    Secretary Donley. Sir, we have lots of MILCON priorities, 
but we would be happy to talk with you and your staff about its 
placement in fiscal year 2017.
    Mr. LoBiondo. Okay. And just lastly, General Welsh, I would 
be hopeful you can chime in here. When can the committee 
finally expect to see a plan on paper that will address the 
need for recapitalization of the Air National Guard's F-16 
fleet in this coming year? It is something we have been asking 
for and asking for, and I understand there have been 
complications, but I am hopeful you can shed some light here.
    General Welsh. Congressman, the Total Force Task Force, the 
guidelines we have given them are to put together a proposal 
for active ARC [Air Reserve Component] mix to include mission 
assignments, the model we use, whether it is a proportional--a 
percentage of the active mission set, resides in the Reserve 
Component, whether it is specific missions that reside 
exclusively in the Reserve Component, and what are both the 
costs and the operational impacts of those courses of action 
that they are going to review.
    We have three two-star generals leading this effort, one 
Guard, one Active, and one Reserve. We have two TAGs [Adjutant 
General] advising them. They report out weekly to me, monthly 
to the Secretary, monthly to the Chief of the National Guard 
Bureau, and then quarterly the intent is to work through OSD 
[Office of the Secretary of Defense] to update the Council of 
Governors.
    The discussion on the options they look at and are assessed 
by a common team of analysts will go on for the next 6 months 
or so. At the end of that timeframe, we will bring a 
recommendation to the Secretary for inclusion in the 2015 
budget. That is where we intend to have this on paper.
    Mr. LoBiondo. So, somewhat possible this calendar year?
    General Welsh. Oh, I think the recommendations will clearly 
be being discussed this calendar year, yes, sir, by this fall.
    Mr. LoBiondo. Okay. Thank you very much.
    The Chairman. Thank you very much.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you very 
much, both of you, for being here.
    You know, you said, and we all know this, that the strength 
of our military lies in our people, and one of the most 
difficult issues that I think we always address come back to 
personnel.
    There are recommendations in the budget that would increase 
TRICARE fees and decrease the traditional way that we have paid 
the military, the raises beyond 1 percent, and I know this is 
difficult for everybody because we face our constituents and 
the men and women who serve our country. If that change does 
not come forth in the NDAA, where does it come from? Where do 
those increases come from? How do they affect readiness? What 
are the consequences of that? We know that there are certainly 
consequences; there always are. How can you respond to that? I 
think it is important for us to understand it.
    Secretary Donley. Yes, ma'am, and I think they are pretty 
clear, especially in the constrained environment in which we 
live. Just again sort of the context for this on TRICARE. When 
TRICARE was created in the mid-1990s, retirees paid about over 
20 percent of the costs of their medical care.
    Mrs. Davis. I think it is 27 percent.
    Secretary Donley. Yes, ma'am, I believe it is 27 percent. 
Today they pay 11 percent. So costs have moved up without 
changes in the fees, so that certainly needs to be addressed. 
If we don't address these issues, the dollars come out of 
modernization, or they come out of readiness, or they make the 
military smaller.
    Mrs. Davis. Can you be a little more specific?
    Secretary Donley. Actually, if you look at the historical 
data, and I think you are familiar with this, ma'am, the U.S. 
military has been getting smaller over the last 30 years, and 
our personnel costs have been going up. So there has not been a 
correlation between a declining size of the Department of 
Defense and its military personnel and a decline in military 
personnel costs. Even on an inflation-adjusted, that is kind 
of--that costs have continued to rise for these kinds of 
reasons. So if those personnel costs are left unaddressed, they 
will squeeze out modernization, they will squeeze out the 
readiness of the force.
    Mrs. Davis. General, did you want to respond?
    General Welsh. Yes, ma'am. I will admit freely to not being 
the world's best researcher, but in research to try and 
understand the problem we are in now with the drawdown from the 
peak spending of a few years ago and where we are going, with 
the potential of sequestration cuts over 10 years, the first 
thing that became obvious to me is related to the Secretary's 
point about personnel costs going up so remarkably over the 
last 10 years.
    One of things that has happened over time is that as we 
built up force structure, our top-line budget in the Department 
of Defense would rise, and then when it was time to draw it 
down, it came down to just below where we started from 
typically.
    One of the differences this time is that in the past, when 
that budget line went up, our force structure went up with it. 
This time in the Air Force, our budget went up, but because of 
that increase in personnel costs, our force structure went 
down.
    Mrs. Davis. Went down, yeah.
    General Welsh. So now the lines are split, which is why we 
are the smallest Air Force we have ever been since we became an 
independent service. As we come down the topline curve, we will 
come down in parallel in the force structure curve. That is the 
thing that makes this noticeably different from a capability 
perspective as I look at the operational end of the Air Force.
    Everything we take from the capabilities side to fund the 
people side is worth considering carefully.
    Mrs. Davis. General, if I could interrupt because time is 
running out, but one of the other areas that is so critical is 
military professional education, and it is my understanding 
from a previous hearing that about 8,000 airmen would not be 
receiving the military professional education that they need to 
be promoted and obviously to go on to be the great officers 
that we need.
    Is that the case, or with some changes in sequestration in 
terms of the way you can move your dollars around a little bit 
more, does that change, or are we still looking at that number 
for the number of the airmen who might not be able to be 
promoted?
    General Welsh. Congresswoman, we are doing everything we 
can to not have that happen. It all comes out of the same pot 
of money. It is all out of the O&M account. And so one of the 
things that we are trying to do is as we get reprogramming 
authority, which the Congress has given us, the Department, and 
we have gotten part of that, we have been able to shift money 
back into flying hours to support combatant commanders who have 
been able to minimize the impact on people's ability to go to 
school. We will continue to work to do that, and, over time, 
clearly that is money well spent. It is not something we should 
stop doing.
    Mrs. Davis. Thank you.
    Mr. Thornberry. [Presiding.] Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Secretary, General, thank you for being here.
    I have two questions and only 5 minutes, so I am going to 
throw them both out and for either or both of you to respond 
to, if you would. The first one is the Air Force's bomber force 
is aging rapidly, with the B-52 [Stratofortress strategic 
bomber] and B-1 [Lancer strategic bomber] scheduled for 
complete retirement by 2040 and the B-2 by 2058. What value 
does the Long-Range Strike Bomber, the LRSB, offer the Air 
Force as a replacement for these systems, particularly in the 
antiaccess/area denial environments that we will be dealing 
with? That is one.
    And then the second one, a followup kind of on what Mrs. 
Davis just asked. We know with the President's F-14 budget 
failing to meet the restrictions of the Budget Control Act by a 
reported $52 billion, there is a concern about sequestration 
across-the-board cuts continuing to fiscal year 2014.
    Could you address specifically how that might impact your 
flight hours and training for less experienced pilots, and what 
impact that would have on our long-term readiness? So either or 
both of you on those two questions
    Secretary Donley. Mr. Forbes, I will take the first one, 
and I think the Chief is in a good place to answer about pilot 
training.
    With respect to the Long-Range Strike Bomber, you outlined 
our challenge with the bomber force, which is aging. Even the 
B-52 now is--excuse me--even the B-2, our most capable stealth 
bomber, is 20 years old now, so we are particularly concerned 
about the age of the B-52 and the B-1s.
    Long-range strike has been a core function of the United 
States Air Force since our inception, and it offers the 
President options to strike any place on the planet at any time 
if national interests require it. It is a good tool for the 
U.S. military to have, and it is an essential capability for 
our Air Force, so we need to get on with the LRSB.
    It is especially important as we look to the Asia-Pacific 
rebalance and as we consider the possibility of denied areas 
and the anti-access/area-denial challenges that we may face in 
the decades ahead. We need long-range and payload to deliver a 
punch, and while our fighter force structure does this in many 
different dimensions, it falls to the bomber force to be able 
to do this at long ranges and with high payloads.
    So it is a very valuable tool for national security. Got 
supported in the defense strategic guidance. And we need to get 
on with LRSB. It is a very important priority.
    Mr. Forbes. Thank you, Mr. Secretary.
    And, General, if you could address the training hours and 
the impact sequestration might have on those flight hours and 
how that impacts our overall readiness. Sometimes that gets 
lost in what we are looking at here.
    General Welsh. Congressman, thank you. It is a great 
question.
    As you know, with the abrupt and kind of arbitrary nature 
of the mechanism of sequestration, flying hours became a 
problem for us instantly. We are protecting basic flight 
training, and we are protecting our flying training units that 
transition new pilots into specific weapons systems, whether 
they be fighters or bombers. They are going to be funded 
through the rest of the year, at least until September, when we 
may run out of flying hour money completely if something 
doesn't change and we have more reprogramming authority. But 
until then, we will protect those courses.
    Our advanced training programs, instructor pilot upgrades, 
the fighter weapons instructor courses we are shutting down. We 
don't have the flying hours to operate them. That gift will 
keep on giving throughout the 20-year career of the individuals 
who did not attend. There is no way we have the capacity to 
plus-up in the future years to go back and fix that. So it will 
have an impact on our force for a while.
    In 2014, we must prioritize money for flying hour training. 
We recruit the best people we can. We have to train them better 
than anybody else in the world does. We have to prioritize it.
    Mr. Forbes. General, thank you.
    Mr. Secretary, one of the things that not many of our 
citizens would be comfortable with is putting their sons or 
daughters on a commercial airliner where the pilot only had 70 
percent of his training. We don't want to make sure our men and 
women going to fight for us have anything less. So thank you 
for fighting for both of those.
    With that, Mr. Chairman, I yield back.
    Mr. Thornberry. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Donley and General Welsh, thank you for appearing 
today and providing us with your testimony. And I look forward 
to working together as one of the co-chairs of the Air Force 
Caucus.
    The island of Guam is very proud of the close relationship 
that we share between Anderson Air Force Base and our local 
community. And, as you know, Guam is very supportive of the 
overall DOD efforts to rebalance forces to the Pacific.
    Now, my first question is for both of you regarding Guam 
Strike, or Pacific Airpower Resiliency, as I believe it is now 
referred to. The Asia-Pacific region is the world's most 
militaried region, with 7 of the 10 largest militaries and 
multiple nations with declared nuclear arms. Instability in 
this region will have a direct and immediate effect for our 
entire Nation.
    The current missile threat from North Korea highlights the 
need for hardening and disbursal of Air Force assets in the 
region. Now, unfortunately, the Senate has had a very unique 
and interesting position on this matter, so I do appreciate the 
Air Force's continued support of the effort.
    Can either of you comment on the need for hardening of 
structures on Guam, the funding and the technology improvements 
for runway repairs, and elaborate on other aspects you see as 
vital for the protection of Guam's forward defense assets.
    Secretary.
    Secretary Donley. Thank you, ma'am.
    Guam is a very important anchor for the United States in 
the Pacific and a very important anchor for the United States 
Air Force. So Andersen Air Force Base gets a lot of attention 
and a lot of business from our Air Force. We routinely use this 
location in both fighter and bomber deployments into the 
region. And, as you know, it is a joint area of operations of 
interest to all of the military services.
    We have five projects in our MILCON budget this year that 
are focused on the kinds of improvements which you described. 
We see ourselves at Guam in perpetuity. Andersen is a very 
important asset to us. And as potential threats develop in this 
region, we need to be prepared to respond to those threats.
    And I think you put your finger on it. This is not a choice 
between disbursal or hardening; it is a combination of factors 
that will help make our bases, from which we fight, resilient 
in any number of threat scenarios.
    Ms. Bordallo. Thank you.
    And, General, do you have anything to add to that?
    General Welsh. Congresswoman, I would just add that, 
operationally, if we expect to be able to survive an attack 
with the weapons that are now available to the enemy and 
continue to operate from Guam, hardened facilities will be 
mandatory.
    Ms. Bordallo. Thank you.
    I have a second question. The Air Force has expressed 
concerns about the current ISR [Intelligence, Surveillance, and 
Reconnaissance] assets and their capability in a more contested 
area. However, I believe that the Global Hawk remains a proven 
platform with continued utility. The language in last year's 
bill is very clear: Congress believes the Global Hawk program 
should be continued.
    Can you comment on how the Air Force intends to sustain the 
Global Hawk Block 30 program past fiscal year 2014? Will the 
Air Force use the funding provided in the appropriations bill 
to procure the additional three Block 30 aircraft? And, 
finally, what is the Air Force doing to work with the 
contractor to address some of the cost and capability concerns?
    I personally believe there are commonsense solutions that 
enhance the Block 30 capabilities, like the transferring of 
some of the equipment from the U-2s [``Dragon Lady'' 
reconnaissance aircraft] to the Global Hawk.
    So could you answer that, either one of you?
    Secretary Donley. Well, ma'am, this remains a difficult 
area where we have been in disagreement with the Congress over 
the past year. We have funded the force structure for the 
Global Hawk Block 30s, as I indicated, through fiscal year 
2014, and there is procurement money that has not been 
expended.
    Ms. Bordallo. Decided.
    Secretary Donley. We went through this discussion again in 
our Air Force leadership, concluded that the decision that we 
had made last year to divest Global Hawk force structure is 
probably the right one. We like the persistence of the Global 
Hawk, but it does not have the sensor capabilities of the U-2.
    Ms. Bordallo. Can you exchange equipment?
    Secretary Donley. Not without cost and time. And at this 
point, our outyear budgets do not include funding for 
sustaining the Global Hawk force structure. So if we would add 
that back, that would be a bill to the Air Force. The moving of 
U-2 sensors onto the Global Hawk is another bill to the Air 
Force. So----
    Ms. Bordallo. Well, thank you. But I will continue my 
interest in the Global Hawks.
    I yield back.
    The Chairman. [Presiding.] Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here again.
    If I could be shameless at the very beginning, basically 
since Korea, this country has maintained air superiority, which 
is a fact we usually take for granted, which is too bad. In the 
present situation, when the United States wanted to show a show 
of force, it was missile defense, it was bombers, it was the F-
22 that was sent over there to illustrate the United States 
commitment. So much for those outside the military that told me 
that these were relics of the Cold War and we didn't need them 
in the future. Not that I am bitter. I still wish we still had 
200 more of those F-22s to be flying around here.
    It also shows that the role of the Air Force is both 
significant and--I am as frustrated as others with not only of 
the impact of sequestration but the other two cuts to the 
military that took place in these last 5 years. It is the three 
cuts combined that have caused the significant problems that we 
now face. And each of those cuts was a difficult one to handle.
    So if I could ask you, General, just a couple of questions 
that are probably more parochial than anything else, I would 
appreciate it.
    General Welsh. Sure.
    Mr. Bishop. The Secretary of Defense was quoted in the 
press the other day as saying that--and he said this yesterday, 
as well--that we have to do some substantial reductions in our 
civilian workforce.
    Obviously, the air logistics complexes, we have a large 
civilian defense population. With AFCM's [Air Force Materiel 
Command] reduction in personnel over the last couple of years 
as well as the reorganization that took place last year, is it 
the contention that we still have a large number of civilian 
workers that could easily or should be reduced at our air 
defense depot sustainment programs or systems?
    General Welsh. Congressman, I will tell you that that is 
not my contention.
    I believe we have taken a look at the problem. I think what 
the Secretary of Defense has discussed, at least in the 
meetings where I have been in the room with him, is the need 
for us to take an honest look at the joint force of the future: 
Pick the essential capabilities the Department will need; look 
at everything, to include worst-case options if sequestration 
is in place at max impact for 10 years; and then come up with a 
realistic game plan for how we go from here to there. That move 
will require reductions in lots of areas.
    Mr. Bishop. All right. Thank you.
    I will try and get these last three in as quickly as I can. 
Once again, parochial, the same time.
    The FAA [Federal Aviation Administration] contract towers 
reduction has had an impact on maybe only a couple of bases. I 
think Congressman Fleming has Barksdale in Louisiana, and I 
have Hill, Utah, where the bases are within 3 miles of the 
airport. The airspace overlaps, and there is potential there 
for conflict if this actually goes through.
    I would simply like to ask if either of you have a problem 
with allowing your local base commanders to communicate safety 
concerns they may have with the FAA, either in letter or other 
kinds of communication forms.
    General Welsh. No, sir. And they have been doing that.
    Mr. Bishop. I thank you. And they have.
    Two other questions very quickly, if I could. You mentioned 
briefly in there the total force integration. Is it your 
contention that this so far has been a success? And do you have 
the intentions of continuing that concept in the future?
    Secretary Donley. Yes, it has been a success, and 
absolutely.
    Mr. Bishop. And this is probably the last one unless I can 
get more to sneak in here. Other than what Congresswoman 
Bordallo said about the Global Hawk, I agree with her.
    The last one is, General Hostage the other day talked about 
ranges, maintaining a couple of the long ranges but having 
smaller ranges being some kind of jeopardy as this kind of 
infrastructure, that we need it to be able to make sure that we 
can drop bombs properly.
    Would you just like to mention a couple of words about the 
significance of the range infrastructure that we have and its 
maintenance potential?
    General Welsh. We cannot train our force to be the best Air 
Force in the world without a range infrastructure. That is why 
we are bumping our funding back up from 25 percent to 75 
percent for the infrastructure and the people that support it. 
We have to try and do even better in the future.
    Mr. Bishop. All right.
    Gentlemen, once again, thank you for being here. And I 
appreciate what the Air Force does to defend this Nation. And, 
obviously, in recent weeks, we have seen the significance of 
having a strong and powerful Air Force. I hope that we can 
maintain that going into the future.
    I yield back.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Donley and General Welsh, first of all, I want to 
thank you for the work that you did in the last Congress 
regarding the force structure change with the Air National 
Guard. Obviously, there was a gap or a disagreement at the 
outset of that process with Congress. But, again, the final 
product in the defense authorization bill was obviously a very 
positive step. And I know that wasn't easy, and I just want to 
at least publicly thank you for that effort.
    And just to follow up on that, you know, the 2014 budget, 
which was released this week, I mean, can you comment about 
whether or not the resources are there to implement that force 
structure change for the Air Guard?
    Secretary Donley. Yes.
    Mr. Courtney. Okay. And, I mean, in Connecticut, we were 
pleased to see and we are looking forward for welcome eight C-
130s to the State. There are a couple issues that we are trying 
to work out in terms of that transition period. And, again, I 
hope, you know, we can continue with the collaboration, you 
know, that was the hallmark of last year to try and work 
through those issues, and I hope I can get that commitment from 
you here this morning.
    Secretary Donley. Absolutely, we will continue to work 
through those issues.
    In the white paper that I referenced earlier in my 
testimony, we have provided schedules for all the force 
structure adjustments. And we are happy to respond to any 
questions you or your staff may have on that.
    Mr. Courtney. Great.
    And as far as the C-130s are concerned, again, there was an 
issue regarding modernization, which, again, ended up getting 
referred to the Institute for Defense Analyses. And I was 
wondering if you have anything you can share with us this 
morning about where you see that headed and just the general 
issue of C-130 modernization, which is going to be an issue, I 
think, for the fleet.
    Secretary Donley. It is important to us, but I would offer 
that we have been trying to find ways to minimize the costs 
there as we get squeezed on the budget front.
    So we had a C-130 AMP [Avionics Modernization Program] 
program that you are probably familiar with, which was a broad 
Avionics Modernization Program for C-130s. It would have been a 
$2 billion effort. That was terminated, and we dropped back to 
something called an optimized CNS [Communication, Navigation, 
and Surveillance], navigation upgrades. That was about a $650 
million program. We have terminated that, backed off even 
further.
    And this year we are proposing a minimum program, a 
minimized strategy, if you will, that will include only the FAA 
upgrades to the C-130s that are required to meet FAA 
requirements for the National Airspace System by 2020 and to 
meet other international FAA-equivalent standards.
    Mr. Courtney. Great.
    Well, thank you. Again, I want to, again, just end by 
applauding the work that you did with Congress last year, and 
look forward to continuing it this session.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Donley, General Welsh, thank you for being here.
    I want to echo the statements of Rob Bishop concerning the 
importance of the Air Force as we look to the crisis that we 
are currently in. I think it absolutely illustrates the need 
for strong air superiority and air capabilities and for missile 
defense.
    And as chairman the Tactical Air and Land Subcommittee and, 
of course, the co-chair of the Air Force Caucus and with 
Wright-Patterson Air Force Base in my backyard and the 30,000 
people who work inside the fence, who contribute every day to 
the national security, I know that you know that I appreciate 
what the Air Force mission is.
    And I want to commend General Wolfenbarger of Materiel 
Command at Wright-Patterson Air Force Base for her effort and 
leadership with the workforce at Wright-Patterson Air Force 
Base, considering the difficult time of sequestration. She has 
raised the issue that sequestration, which I know both of you 
gentlemen know that I opposed, the effects that this has on 
individuals and that there are people who have kids in college, 
house payments to make, family vacations that are being 
cancelled, as you look to the almost 13,000 people at Wright-
Patterson Air Force Base and the civilian workforce that would 
be facing furlough. So I appreciate your dedication and 
attention to those individuals as we go through the 
sequestration implementation.
    A few comments about the issue of sexual assault, which has 
unfortunately been one that the Air Force has had to deal with 
very frequently. I want to commend General Harding. He has done 
an excellent job on the Special Victims' Counsel Program as a 
result of legislation that came out of the House and this 
committee trying to provide victims with legal counsel. General 
Harding has, I believe, a model for DOD. And my co-chair, Niki 
Tsongas, and I of the Sexual Assault Prevention Caucus are very 
pleased with that.
    And, General Welsh, thank you for your support for the 
amendment of Article 60 as a result of General Franklin's, I 
believe, inappropriate and improper setting aside of a sexual 
assault conviction in the officer's court-martial conviction. 
Congresswoman Tsongas and I are working on language that would 
amend Article 60, and we think we have a good proposal that we 
appreciate, General Welsh, your willingness to work with us on 
your thoughts on that.
    Mr. Secretary, we have talked before about NASIC [National 
Air and Space Intelligence Center]. As we look to cuts in 
budgets and we look to sequestration, I am always concerned 
about the effect on our intel community. I believe that, you 
know, as we look to reorganizations, BRACs, sequestration, 
issues like that are always at risk. And I think you know that 
NASIC is a high performer and is critical to our intelligence 
community and certainly has played a significant role as we 
look to the issue of the threats of North Korea.
    I wondered if you might speak for a moment on the 
importance of NASIC's function and the Air Force's recognition 
that, as we go through this process, the importance to uphold 
NASIC.
    Secretary Donley. Well, NASIC is critical to our air and 
space intelligence enterprise. It provides not just good 
intelligence support to the Air Force and the joint team, but 
this combination of intelligence and technical support that is 
focused on aerospace matters is particularly important to the 
Air Force right now, and especially in the space domain and in 
the cyber domain as those areas grow in importance. So this is 
a very important asset for the United States Air Force.
    Mr. Turner. Great. Thank you.
    General Welsh, as we look to sequestration and the effect 
on our tactical fighter inventory, we have grave concerns as to 
what those impacts will be in the short term, long term, and 
also the effects of--as we look to inventory shortfalls, 
productions, increased costs later as we try to respond. If you 
could speak for a moment about the effects of sequestration on 
that production, I would appreciate it.
    General Welsh. Congressman, as you know, it affects us 
near-term, and clearly it will affect the cost of modernization 
and the cost of acquisition of new programs. Everything that 
delays a program like the F-35 will add unit cost over time; it 
will stretch the program out, which will add additional costs.
    I think our focus has to be to minimize that, which is the 
reason for some kind of predictable topline budget going 
forward which allows us to do the long-range planning we need 
to do to be able to do this the right way. Everybody 
understands that we are going to have to take cuts in the 
Department; we would just like to responsibly plan to get from 
point A to point Z.
    Mr. Turner. Thank you.
    And, gentlemen, as we look to sequestration, I would 
appreciate your articulating very clearly the impacts on our 
national security and how it affects our readiness. I know DOD 
was restrained previously from doing that.
    Unfortunately, the President, in his budget, as you know, 
when he stated he was going to give us a sequestration 
proposal, did not. There are things in here like ``have savings 
in Medicare as a result of eliminating waste, fraud, and 
abuse.'' This is not a proposal that could either go to the 
House or the Senate and be passed and be implemented in any way 
that would offset sequestration. I would appreciate you telling 
the Administration they need to come up with a real proposal.
    Thank you.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    At the outset, I would like to echo the comments of 
Congressman Turner about the work that the Air Force is doing 
on victims' counsel, providing access to counsel. I do agree it 
is a model, and I appreciate all the work that General Harding 
has put into it. And we continue to look forward to working 
with you on the powers of the convening authority.
    But I want to thank you both for being here as part of the 
regular process. I am the daughter of an Air Force officer. He 
was a survivor of Pearl Harbor, went on to serve for 20 years. 
And I grew up on Air Force bases across this country and the 
world, and it was quite a life.
    And I believe it is vital for our committee to work with 
you both to make sure we are providing the very best services 
for our airmen and fielding peerless technologies to defend our 
Nation. Clearly, as one of the country's preeminent high-tech 
clusters of industry and academia, my State, Massachusetts, 
plays a critical role with this latter responsibility.
    So to get to an issue that is close to home, my office has 
been working with the committee for the past year to look for a 
path forward for a $450 million enhanced-use lease renovation 
project for MIT's [Massachusetts Institute of Technology] 
Lincoln Labs, which is located on the grounds of Hanscom Air 
Force Base.
    Lincoln, as I am sure you know, is one of the Nation's very 
finest federally funded research and development centers. And 
since the height of the Cold War, Lincoln has led the way in 
long-term defense technology development as well as rapid 
system prototyping and demonstration.
    But, unfortunately, parts of the facility have run into 
obsolescence issues. I view this as a critical project to 
keeping Lincoln Lab on the cutting edge of technology and to 
make sure it is able to continue to work to confront the 
Nation's most complex technological challenges.
    I appreciate the work both the Air Force and the Office of 
the Secretary of Defense have been doing to develop a path 
forward on this lease. But I would ask that you put a priority 
on this project and that you keep me informed should you have 
any issues or should you require the assistance of me or the 
committee.
    We included language in the last year's defense conference 
report urging the proposal to move forward. We have to remember 
there are no taxpayer dollars associated with this. This is a 
commitment that MIT is making. And yet it has been too long in 
the making.
    So my question is a very simple one: Can I count on both of 
your support with this request, that we work on this and 
resolve it as expeditiously as possible?
    Secretary Donley. Ma'am, I am aware of this problem. I 
don't have a solution for you today.
    As far as I can tell, this has to do with the scoring 
mechanisms that are out there, which are prejudicial, in the 
sense that the United States Air Force cannot stand behind a 
loan without having it be scored by OMB [Office of Management 
and Budget]. And if it has to be scored by OMB, it is the 
equivalent of a MILCON project. In other words, it goes on our 
books as a liability in that context, as a cost. We will 
continue to work those issues with OMB to try to find a way 
forward.
    I am going up there in 2 weeks and expect to get briefed on 
this project. I understand the larger scheme of the requirement 
and the need to find a way forward.
    Ms. Tsongas. Thank you. As I have learned in life, where 
there is a will, there is a way. So let's harness the will so 
we can find the way.
    Another question, quickly. Another concern around Hanscom 
Air Force Base is that fundamentally there is a lack of 
appreciation for Hanscom's mission among many in the Air Force 
and that some of the misconceptions about Hanscom could be held 
toward other technical facilities as well.
    By the Air Force's own admission, Hanscom's C4ISR [Command, 
Control, Communications, Computers, Intelligence, Surveillance, 
and Reconnaissance] acquisitions portfolio is the most complex 
in the service. It seems to me that the best way to better 
appreciate that is if I could invite you, General Welsh, up to 
Massachusetts to come to Hanscom with me so that we can begin 
to better understand really the extraordinary offerings at 
Hanscom and the extraordinary work it does on behalf of the Air 
Force.
    Could I invite to you come up there at your convenience?
    General Welsh. I am honored that you would ask me. I would 
love to do that.
    Ms. Tsongas. Great. Thank you so much.
    I yield back.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    General Welsh, I would be remiss if I didn't pass on the 
fact that Carol Ann Bonds from San Angelo, Texas, sings your 
praises every single time I am around her. So you have done 
something to pull the wool over her eyes someway. I am not sure 
how that is working.
    General Welsh. Thank you.
    Mr. Conaway. As I spoke with Secretary Hagel yesterday, I 
am still keenly interested in the Air Force providing me and 
the rest of the taxpayers of the United States with auditable 
financial statements, systems that are sustainably auditable 
over the infinite horizon kind of thing.
    Can you talk to us a little about the struggles you are 
going to face with all these budget cuts, all these challenges 
to resources? And one of the easiest things to cut sometimes 
would be something like this, that we still have to move it 
forward in spite of everything else that is going on. So can 
you talk to me a little about where you are currently standing?
    Secretary Donley. We do have to continue to move this 
forward as a priority.
    I will say that it is more complicated as we make midyear 
changes and budgets go up and down and we focus on--in the 
Department of Defense and in the Air Force, we are spending 
more and more time on shorter and shorter distances in front of 
us. So we are very focused on just executing fiscal year 2013 
right now, and a lot of other work has been pushed off.
    But to your specific question about audit readiness, we are 
still working this. We have had some progress. We have had some 
challenging aspects to this.
    Last year, we put out a bid for contractor support to get 
independent auditors to help us work through our auditable 
statements before they are submitted in their final form at the 
end of 2014 and beyond, to help us get ahead of this and get a 
professional look at what we are doing. That contract was 
protested and has been under protest, so we have lost some time 
there.
    But we have extended the DEAMS [Defense Enterprise 
Accounting and Management System], our new budgeting system at 
Scott Air Force Base, which is getting off the ground there. We 
did get a clean opinion recently on missile components, part of 
our enterprise. And I think this was the first time that a part 
of DOD's investment portfolio had gotten a clean opinion.
    So there has been some progress, but this is still uphill 
work for us. There is lots to do.
    Mr. Conaway. Well, I recognize that. And just understand 
that we are going to continue to push where we can.
    Under the rubric, or under the category of if you are 
faithful to small things, you will be faithful to big things, 
my mail budget out of my congressional office has shrunk 
considerably because I quit using all the slick, four-color, 
five-color things and just try to communicate, trying to trim 
it back wherever I could. I just got handed the fiscal-year-
something rollout. And we have pretty slick documents here that 
I don't know what it cost to print them or prepare the data.
    But as you look at trimming costs wherever you can, these 
are the kinds of things that I think can--don't get read, quite 
frankly, and are just--the taxpayer could put that--you, I 
think, could put taxpayer money in better places than on these 
slick documents, some of which are just duplicates of things 
that have already been done.
    So I appreciate your commitment.
    General Welsh, I don't know if you had a comment. I need 
your leadership, as well, on this audit thing. And getting a 
few comments from you would be helpful to the team you lead to 
make sure that I and they know how committed you and Secretary 
Donley are to this auditability thing.
    General Welsh. Congressman, I think we are on a well-
designed and aggressive path to getting where we need to be by 
2014.
    As you well know, the availability of IT [information 
technology] systems that allow us to expose and share data 
across system and functional lines is the biggest shortfall we 
have. It is a big shortfall. And there are an awful lot of 
people working awfully hard to figure out how to sneakernet and 
manually overcome that while we develop the IT systems in the 
future.
    This is a huge task. We are working it as hard as we can.
    Mr. Conaway. And you are committed to----
    General Welsh. Absolutely.
    Mr. Conaway. All right. Thank you, General.
    Secretary, thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, what are the costs, the Air Force costs, of 
forward-deploying nuclear weapons in Europe?
    General Welsh. Congressman, there are several types of 
costs that go into this. There are operations and maintenance 
costs. There is the cost of maintaining the storage facilities. 
There are the costs of the people that you train and station 
overseas to protect those facilities. There are the flying-hour 
costs to keep aircrews certified in the mission itself. There 
is the cost to do integrated training with NATO [North Atlantic 
Treaty Organization] because it is an integrated mission inside 
the NATO structure. And then, of course, there are the costs 
over time of upgrading infrastructure, like the weapons storage 
vaults, upgrading weapons systems, upgrading command and 
control systems to support it.
    I couldn't even begin to give you a number off the top of 
my head that incorporates all of that, but it is expensive over 
time.
    Mr. Johnson. Uh-huh. Approximately, per year, are we 
talking about, what, $5 billion? $10 billion? Neighborhood.
    General Welsh. Yeah, Congressman, I would have to get back 
to you with that, unless the boss knows a number. There are so 
many pieces of that are in different places, that we would have 
to pull that together. I would be glad to try and do that and 
give you a ballpark figure, though.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Johnson. Okay.
    You would not have anything to add to that, Mr. Secretary?
    Secretary Donley. No.
    Mr. Johnson. All right.
    Well, what about cyberspace and the Air Force's ability to 
operate within that space? Is the Air Force currently 
addressing cyberspace as a part of its defense capabilities?
    Secretary Donley. Absolutely. This has been part of our 
force structure for some period of time. And it has been about 
4 years since we established 24th Air Force, which is the Air 
Force component of U.S. Cyber Command, which reports to 
Strategic Command. So we have had a dedicated number at Air 
Force to the cyber work. And there are other cyber capabilities 
that we provide to the DOD and joint community that are 
considered very high-value assets.
    This is one area where it is not clear how big the cyber 
workforce is going to be in the future. We all face manpower 
constraints, and it is one where technology and expertise plays 
a very big role. And so we are not quite sure yet what the 
joint requirement will be or what the upper limit requirements 
will be for Air Force personnel and force structure.
    The chief, I think, has a little bit.
    Mr. Johnson. Are you recruiting and training airmen with 
cyber skills, and are you retaining them after the training?
    Secretary Donley. Absolutely. There is cyber training at 
three or four levels in our Air Force, from basic introductory 
to journeyman to highly expert network warfare kinds of 
training, takes place across our Air Force.
    We have been able to retain airmen, generally. Where we 
have had more difficulty in doing that at some of the more 
highly skilled levels that are prone to having airmen leave and 
go to work in the private sector, we have extended enlistments 
and we have added dollars to our personnel accounts to induce 
airmen to stay longer to provide extra benefits and extra pay, 
if you will, to keep them longer.
    Mr. Johnson. Is that something that you need any help from 
this committee with?
    Secretary Donley. If we do, we will be sure and tell you.
    Mr. Johnson. All right. Thank you very much.
    I yield back.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    And Mr. Bishop opened up the question of the long-range 
strike bomber, and so, Mr. Secretary and General Welsh, I want 
to return there. The home of Global Strike Command is in my 
district. I was very pleased to hear you say very supportive 
things about the fact that we need to continue funding the 
development and, in fact, increase funding for development of 
this valuable program.
    I didn't get a chance to ask this question, though, to 
Secretary of Defense Hagel. Can you give me an idea of, does he 
share, Mr. Secretary, your feelings about the long-range strike 
bomber and the need to develop it?
    Secretary Donley. I would say over the course of the last 
month the Secretary and I have not had an opportunity to talk 
specifically about the long-range strike bomber. I believe he 
understands the value of this capability. It got support in the 
Defense Strategic Guidance, which remains an anchor for the 
Department as we consider future alternatives and options going 
forward.
    So I believe he supports the program, but I have had no 
direct conversations with him on that.
    Dr. Fleming. Okay. Yes.
    One of the issues that pops up at times is this nuclear 
triad, which, of course, has been a fundamental part of peace 
through strength and nuclear deterrence. Mr. Secretary and 
General Welsh, both, what is your feeling about maintaining and 
continuing the concept of a nuclear triad?
    Secretary Donley. Well, I would just offer and would like 
the chief to chime in, as well, with his views.
    My view is that, even if the nuclear enterprise gets 
smaller, it is important that we remain committed to, we take 
advantage of the diversity of the nuclear triad.
    So each, the land-based, the sea-based, and the bomber-
based, leg of this triad has operational advantages and 
disadvantages. And our task and our opportunity with the triad 
is to complicate an aggressor's problem by presenting so many 
problems and challenges that no one would contemplate using 
nuclear weapons against the United States. And I think the 
triad helps fulfill that.
    Dr. Fleming. Extremely well put.
    Yeah, General Welsh.
    General Welsh. I would just like to add to that by saying, 
in operational terms, what the triad gives us is flexibility, 
responsiveness, and survivability. And those three things 
together, I think, are kind of the strength of our nuclear 
deterrence posture.
    Dr. Fleming. Obviously, deterrence is the real bottom line 
to nuclear weapons. We have them and we can deliver them so 
that we never have to do that. And, certainly, I agree with 
you; creating serious problems for potential adversaries in 
that arena is really our goal here.
    What about the ALCMs [air-launched cruise missile]? What is 
our follow-on to our current ALCM, which is, of course, the 
modern system by which we deliver both conventional and nuclear 
weapons from our bombers?
    Secretary Donley. Well, our plan is to sustain the ALCMs 
through about 2030. There is a follow-on program, the long-
range standoff missile, which is early in development and is 
part of the nuclear modernization plan that has been described 
to Congress in the past.
    Dr. Fleming. Uh-huh.
    Anything else to add to that, General Welsh?
    General Welsh. No, sir.
    Dr. Fleming. Okay. Great. With that, thank you, gentlemen, 
and thank you for your service.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    It looks like votes are imminent, and we still have several 
Members that haven't had the opportunity to ask questions. We 
will try to get one or two in, and I think we can still make 
the first vote. And there are three votes, so we would have to 
have a short recess.
    But I want to ask, any of the Members, will you be coming 
back? One, two--okay.
    Mr. Secretary, General, if you could be patient with us.
    Let me ask again, will any of you return after the series 
of votes that don't get to ask your questions first?
    Okay. Then we will come back after the recess.
    Mr. Gallego? No questions?
    Mr. Gallego. I am happy ask after or submit them.
    The Chairman. It is your turn now, if you want to ask.
    Mr. Gallego. Mr. Chairman, I am happy to submit them for 
the record, as well.
    The Chairman. Okay.
    Then, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary Donley, our national security space capabilities 
provide a tremendous advantage to the warfighter, whether it is 
GPS [Global Positioning System] signals navigating bombs to 
targets or missile warning satellites keeping watch around the 
globe 24/7. We invest billions in these capabilities. We rely 
on our space launch infrastructure to provide us assured access 
to space and these capabilities.
    The Air Force's launch program, Evolved Expendable Launch 
Vehicle, has a tremendous record of over 50 consecutive 
successful launches. Can you describe what the Air Force's 
plans are in fiscal year 2014 and beyond in regards to 
maintaining the space launch capability?
    Secretary Donley. Sir, I think we are very well-positioned 
in that area. As you described, EELV [Evolved Expendable Launch 
Vehicle] has been a very successful program. Our concern has 
been that it has been growing in costs.
    We now have potential alternatives to that that are coming 
along through a group of companies that are described as new 
entrants into space launch. Working with NASA [National 
Aeronautics and Space Administration] and the National 
Reconnaissance Office, the intelligence community, we have 
crafted a strategy for how to bring in new entrants and certify 
them in space launch.
    At the same time we have been doing that, we have been 
working with ULA [United Launch Alliance] to drive down the 
costs of EELV and have developed an acquisition strategy to do 
that through block buys. And so we are getting--I think we are 
poised to get the best for the warfighter and the best for the 
taxpayer at the same time.
    So we will have block buys of EELV for the next few years. 
And then in the midteens, there will be an opportunity for new 
entrants to compete. And we will have the capability, subject 
to their certification and their readiness to compete, we will 
be able to have EELV and new entrants competing for launch 
capability.
    Mr. Coffman. Great. Let me just clarify, in your view, 
should the EELV launch capability contract be phased out or 
continue?
    Secretary Donley. There is a separate contract, I think it 
is referred to as the ELC [EELV Launch Capability] contract, 
which involves ULA support at the east and west range. And we 
recognize that this is an additional cost in EELV that needs to 
be worked out in order to create a level playing field between 
ULA and the new entrants when we get into a competitive 
environment. So we are looking at how to work out that ELC 
contract in the context of creating a level playing field.
    Mr. Coffman. Okay.
    Just a couple points on your budget and sequestration. You 
know, obviously, your hands are tied. But we are going to rely 
on you, in part, for your professional advice, General Welsh 
and Secretary Donley, on how to reprioritize these cuts if, in 
fact, these deficit-reduction targets are with us to stay.
    And so a couple of the things I would like to look at are, 
if we are going to do a base realignment and closure commission 
and if--and I rely on you. If you say we have surplus capacity 
that is driving unnecessary costs, I am going to support you on 
that. But I really strongly believe that--and I think that 
there was language passed in the previous National Defense 
Authorization Act for you to look at foreign--I mean, overseas 
basing, as well.
    I really think that the notion of, you know, maintaining 
permanent forward-deployed bases where, you know, we have all 
the infrastructure there to support the military families and 
the schools, dependent schools, and all those things, as 
opposed to, you know, doing joint military exercises to 
demonstrate our support for our allies and rotational forces 
for shorter periods of time, moving units in and out, I think, 
is a lot more cost-effective.
    And especially when we are looking at closing bases down in 
the continental United States, I think it is unfair not to take 
that strong look in terms of our overseas bases.
    Would any of you like to comment on that?
    General Welsh. Congressman, I absolutely think we need to 
be taking a hard look at overseas infrastructure. We are in the 
process of doing that right now, both within the Air Force and 
in conjunction the Department of Defense, which is taking a 
broader look, and we are feeding that discussion.
    I don't think we will find that end game that you can bring 
everything home. I think the idea that everything can be done 
rotationally----
    Mr. Coffman. Sure.
    General Welsh [continuing]. Is a nonstarter.
    Mr. Coffman. Nobody is saying that.
    General Welsh. But I think there are opportunities for 
consolidation and closures in areas in Europe, for example. I 
think we should do that. We are doing that this year to make it 
very clear so that we have done that before we ask for a round 
of BRAC in 2015.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary, General Welsh.
    General Welsh, in the fiscal year 2013 through 2017 FYDP 
[Future Years Defense Plan], Scott Air Force Base, which 
happens to be in my district, was positioned for three 
construction projects, two of which are the building of a 
TRANSCOM [Transportation Command] mission planning center for 
fiscal year 2016 at a cost of $76 million, and in addition to 
the 126th Refueling Wing, a squadron operations facility, that 
also was fiscal year 2016, at a cost of $11.4 million.
    Now, as you are well aware, Scott is, of course, the 
headquarters for TRANSCOM as well as AMC [Air Mobility Command] 
and other critically important missions. And the service they 
provide there to our Nation is critical, particularly 
considering the important work being done to transition our 
forces out of Afghanistan and enabling our military and, 
indeed, our Nation's global reach. Yet, in the President's new 
budget, these projects have been removed.
    Can you explain to me why they were a priority last year 
but not a priority this year, according to DOD?
    General Welsh. Congressman, I can't. I will ask the 
Secretary if he can or I will take it for the record and get 
you an answer very quickly.
    Secretary Donley. Happy to do that for the record.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Enyart. Thank you.
    I would yield back the balance of my time and submit the 
balance of my questions in writing.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    And you spoke briefly about the JSTAR, Secretary Donley. 
Obviously, that is in my district. I am very familiar with that 
platform. It is time that we either have to re-engine or 
replace. They are aircraft that continually fly. It is a 
mission that is extremely important to the Air Force and our 
national security. And I want to work with you in any way I can 
to make sure that we do what the Air Force needs there.
    My question is about the preferred approach to modernizing 
these aircrafts. It is my understanding that you prefer to 
replace it with a new platform. Is that correct? And could you 
speak to that briefly?
    Secretary Donley. Yes.
    Mr. Scott. And so----
    Secretary Donley. But right now that--the funds to do that 
are not available.
    Mr. Scott. Yes, sir.
    Just turning briefly to weapons system sustainment. We have 
three depots left in the Air Force. Obviously, aircraft is what 
we do in the Air Force, and we have to maintain a lot of them.
    Are you comfortable with the current requirement that the 
Air Force maintain the three depot strategy?
    Secretary Donley. I am. I think the Air Force is about 
right-sized at three depots. They are all very busy and have 
plenty to do.
    I am concerned in the near term about the impacts of 
sequestration----
    Mr. Scott. Yes, sir.
    Secretary Donley [continuing]. Which will defer about 60 
aircraft, about 35 engines, and will create some backlogs for 
us moving forward.
    Mr. Scott. Yes, sir. I am extremely concerned about that, 
as well, and want to work with you any way I can.
    I hope to have both of you at Robins Air Force Base and 
then in Moody Air Force Base, as well, in Georgia. I represent 
both of those areas. And, gentlemen, thank you for your service 
to the country, and thank you for your time.
    I yield the remainder of my time back.
    The Chairman. Thank you very much.
    We have 1 minute left. Mr. Nugent, if you want to take 1 
minute?
    Mr. Nugent. What I will do is give my question to the 
record, you know, if they would answer.
    We appreciate your time. Obviously, having been in the 
blue, we appreciate what you do, both of you, in seeing you 
just recently. So my question will come back in a form in 
writing to you. Thank you so very much for your service.
    The Chairman. Thank you very much. I just don't want to see 
you miss the vote, and we have 2 minutes left to get there.
    And Mr. Langevin also had a question, and there may be some 
others that would submit for the record.
    But I don't want to have you sitting here and then have 
them not come back.
    So thank you very much for being here. Thank you for your 
comments. I think this has been well worthwhile.
    And this committee will stand adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 12, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 12, 2013

=======================================================================
      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

          Budget Request from the Department of the Air Force

                             April 12, 2013

    The committee meets today to receive testimony on the 
President's fiscal year 2014 budget request for the Department 
of the Air Force. I am pleased to welcome Secretary Donley and 
General Welsh. It takes great leadership to guide people 
through the kind of uncertainty we have been experiencing, and 
our Nation is fortunate to have you as our Nation's flight 
leads. Thank you for your outstanding service as you tackle the 
incredible national security issues we face.
    After reading your budget materials, I was struck by the 
fact that in fiscal year 2013, your Active end strength was 
329,500 men and women, a number which makes the Air Force about 
the same size it was when it became a separate component in 
1947, and yet the world is certainly a different place today. 
Your fiscal year 2014 request reduces end strength to 327,600. 
I worry about this, especially as we consider the strategic 
implications of recent events on the Korean Peninsula where 
airpower plays such a critical role in assuring our national 
security interests. As you say in the budget materials, you are 
attempting to trade size for quality, but quantity often has a 
quality all of its own, particularly in the vast expanse of the 
Pacific. You know, when Admiral Locklear was here a few weeks 
ago, he pointed out to us that if you take the size of the 
Pacific, you could put all the land mass in that space and 
still have room left over for, I believe he said, Africa and 
Australia. Pretty big area.
    At some point we almost recognize that the assumption of 
mission risk will be too great. I hope that you will highlight 
your concerns regarding this issue in your testimony and 
provide more detail about where you see this trend going into 
the future. I also hope you will discuss the recent 
announcement at unit standdowns across the Air Force and its 
implications for force readiness.
    You know, I think this committee is well aware of these 
problems, but I don't think the whole Congress is, and I am 
convinced that the Nation really doesn't understand the 
severity of the cuts that we have been imposing. It could take 
years to recover from this decision because your people won't 
be able to train. This complicates an already seemingly 
untenable situation after nearly two decades of procurement, 
reductions, or deferrals for the Air Force and the resulting 
risks of maintaining an aged fleet of aircraft.
    With pilots not training, depot maintenance not being done, 
and the continued reduction of new aircraft procurement, we 
must ask ourselves where is the breaking point, and what we 
need to do to prevent it, how much risk is too much.
    I am encouraged by the request for the Air Force's three 
most important modernization programs, the KC-46A tanker, the 
F-35A, and the Long-Range Strike Bomber, but those programs are 
budgeted to stay on track, but the effects of sequestration in 
fiscal year 2013 could result in a potential $1.6 billion bow 
wave in research, development tests and evaluation, and a $1.3 
billion bow wave in procurement.
    The fiscal year 2014 budget request does not provide any 
margin to repay programs that will be sourced to pay for 
critical readiness in fiscal year 2013. Air Force modernization 
cannot wait for the next big uptick in defense spending. We are 
in a difficult time, and we must make hard choices. Your 
testimony today will go a long way to help this committee and 
others in Congress make the right choices.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

          Budget Request from the Department of the Air Force

                             April 12, 2013

    I think the chairman has summed up quite well the 
challenges that you face. And we are all familiar with the 
impacts of sequestration, or I should say we are familiar with 
the fact that it did make things very difficult. The particular 
impacts are still being sorted out, I mean, literally on a day-
by-day, if not hour-by-hour basis by all of our Services, and, 
of course, outside of the Department of Defense all aspects of 
the Government that are impacted by sequestration, and that is 
the great challenge. Given the defense threat environment that 
we have out there, which is not shrinking, it may be shifting 
and changing, but it is certainly not shrinking, how do we meet 
those threats? How do we budget? How do we plan in this 
uncertain environment?
    We have heard some about some of the changes the Air Force 
had made, the air wings, bomber wings that you have had to 
stand down, and I think what we are going to be most interested 
in throughout this hearing is how you plan to manage through 
that process.
    Again, I will just take this opportunity to emphasize that 
as a Congress, we need to stop sequestration. However we put it 
together, whatever the agreement is, mindless across-the-board 
cuts is simply the wrong way to run a government, you know. We 
can find ways to save that money, gosh, even within the 
discretionary budget a lot smarter than we are doing so right 
now, and I think a sense of urgency is simply not where it 
should be with this Congress to fix that problem.
    But we look forward to your testimony, Secretary Donley and 
General Welsh. You have served this country very, very well. We 
appreciate your hard work, and please let us know how you are 
dealing with this challenge and what we might be able to do to 
help. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 12, 2013

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MR. ENYART

    Secretary Donley. The Air Force is carefully positioning our most 
urgent military construction requirements in the Future Year's Defense 
Program. While there remains a requirement for the projects in question 
at Scott Air Force Base, there is not enough funding to accommodate all 
of the Air Force's requirements within the current Air Force Budget. We 
will strive to include these projects in a future President's Budget as 
funds are available and priorities permit. We look forward to your 
continued support for military construction projects and other critical 
Air Force priorities through the fiscal year 2014 budget cycle. [See 
page 32.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON
    General Welsh. The current amount funded by the Air Force to 
support forward deployed nuclear weapons in Europe is:


----------------------------------------------------------------------------------------------------------------
     Fiscal Year ($M)         FY13        FY14        FY15        FY16        FY17        FY18    FYDP (FY14-18)
----------------------------------------------------------------------------------------------------------------
Officer                    7.0         7.2         7.2         7.4         7.5         7.8        37.1
----------------------------------------------------------------------------------------------------------------
Enlisted                   64.9        66.2        67.8        69.1        70.8        71.8       345.7
----------------------------------------------------------------------------------------------------------------
O&M                        2.4         2.5         2.5         2.5         2.6         2.6        12.7
----------------------------------------------------------------------------------------------------------------
Weapon Storage Sys.        2.4         2.3         2.4         2.4         2.4         2.4        11.9
----------------------------------------------------------------------------------------------------------------
Transportation Costs       2.9         2.9         2.9         3.0         3.0         3.0        14.8
----------------------------------------------------------------------------------------------------------------
Total                      79.6        81.1        82.8        84.4        86.3        87.6       422.2
----------------------------------------------------------------------------------------------------------------


     [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 12, 2013

=======================================================================

      
                    QUESTION SUBMITTED BY MR. MILLER

    Mr. Miller. The GAO High Risk Report identified ``Potential gaps in 
environmental satellite data beginning as early as 2014 . . . have led 
to concerns that future weather forecasts and warnings--will be less 
accurate and timely.''
    Is the Air Force considering commercial data purchases from 
American companies as an alternative to some sensors on the next-
generation DMSP satellite to reduce cost and as a way of mitigating 
this ``data gap?''
    The Space Commercialization Act established incentives to build new 
American companies to provide military and commercial space 
capabilities. Are there additional authorities Congress could add to 
the Space Commercialization Act authorities to assist the Air Force in 
incentivizing American commercial sources of weather data as another 
viable alternative for the DOD follow-on satellite program?
    Secretary Donley. As part of the ongoing Department of Defense 
Space Based Environmental Monitoring Analysis of Alternatives, we 
considered commercial data purchases from American companies as an 
alternative to sensors on the next-generation Defense Meteorological 
Satellite Program satellite. Once the Analysis of Alternatives (AoA) 
concludes its analysis, the Department will look for the most 
affordable means to deliver those needed capabilities, including 
commercial data
purchase.
    At this time, the Air Force has no recommendations for additional 
authorities to the Space Commercialization Act. We will reevaluate our 
assessment as required based upon the outcome of the ongoing AoA.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. We have been told by U.S. Transportation Command that 
some of the C-5 and C-17 overflight hours can be attributed to a lack 
of availability of certain aircraft in the Civil Reserve Air Fleet.
    What is the Air Force doing to preserve the service life of its 
aircraft by shifting B747 eligible cargo to the CRAF carriers and 
flying the C-17/C-5s only for outsize/oversize cargo?
    Secretary Donley. The programmed flying hours we execute today are 
based on steady-state, non-mobilized scenarios that for the most part 
assume only voluntary participation from the Reserve Component. C-17/C-
5 over-flight is a direct result of organic oversize/outsize 
capabilities and access to hostile environments that the Civil Reserve 
Air Fleet (CRAF) cannot support. When U.S. Transportation Command 
receives an air movement request, they flow the request through a 
lengthy logic process to determine the most appropriate asset to 
accomplish the task. The logic process is designed to optimize the 
participation of our Commercial Augmentation and CRAF partners. CRAF 
augments organic airlift, but we utilize CRAF carriers to the maximum 
extent possible. All Department of Defense (DOD) commercial missions 
are conducted in compliance with the Fly America and Fly CRAF Acts. The 
``Fly CRAF'' statute (49 USC 41106) requires that DOD contracts for air 
transportation of passengers and cargo on ``CRAF-eligible'' 
requirements be awarded to CRAF carriers if ``available'' (for flights 
within the United States and between the United States and a foreign 
country) or ``reasonably available'' (between two non-U.S. points).
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Mr. Secretary, I continue to be concerned about the 
overall strength and size of the Nation's cybersecurity workforce. What 
type of education and training is the Air Force implementing to recruit 
and provide our young airmen with the cyber skills they need to make up 
the new teams that General Alexander announced during a recent 
Intelligence, Emerging Threats and Capabilities Subcommittee hearing? 
What is the Air Force doing to encourage them to stay in uniform to 
maintain the Services' advantage?
    Secretary Donley. Air Force cyberspace training programs develop 
Total Force cyberspace professionals from numerous career fields. Core 
training includes Undergraduate Cyberspace Training and Cyberspace 
Defense Operations at Keesler Air Force Base (AFB), Mississippi, and 
Intermediate Network Warfare Training at Hurlburt AFB, Florida. We have 
also developed an Intelligence Cyber Analyst course at Goodfellow AFB, 
Texas, to train our digital network analysts. This analyst training is 
complemented with a six-month follow on Joint Cyber Analysis Course at 
Pensacola Naval Air Station, Florida. Cyber personnel attend further 
joint cyberspace and related courses based upon position requirements 
and work roles. In addition, the Air Force Institute of Technology at 
Wright-Patterson AFB, Ohio, conducts graduate-level cyber curricula and 
professional continuing education. Growth and change is constant in the 
cyberspace domain, and these schools adjust as technology and tactics 
evolve.
    Currently, retention for Airmen in most cyberspace career fields is 
healthy. Where we have challenges (e.g., digital network analysts), we 
have increased the use of assignment availability codes to ensure 
mission continuity and tour stability. We have also established active 
duty service commitments to ensure a return on training investments. 
Furthermore, the Selective Reenlistment Bonus (SRB) program is one of 
the Air Force's most flexible and responsive force management tools. It 
provides monetary incentive to retain existing members in critical 
skills that have low retention and/or low manning, as well as entices 
Airmen from less critical skills to retrain into critical career fields 
receiving SRBs. Cyberspace Airmen have multiple opportunities to 
advance in their careers. They are deliberately force managed to 
acquire breadth in their career fields and depth in the cyberspace 
field. For example, certain specialties will serve consecutive 
operations tours in cyberspace positions at different locations to 
build depth as they progress through their career. This experience is 
coupled with continuing professional cyberspace education to build 
cyberspace experts.
    Mr. Langevin. Mr. Secretary, as we negotiate these challenging 
budgetary times, we must attempt to preserve the investments needed to 
succeed in the future, even as we deal with the constraints of the 
present. In particular, in your view, are we adequately protecting the 
investments in advanced research and development, such as directed 
energy, IT, materials, and other fields that we will depend upon to 
maintain technological superiority in the future, as well as 
investments in advanced education for the officers and airmen that will 
become the leaders who must cope with future challenges that we cannot 
yet envision?
    Secretary Donley. Yes. The fiscal year 2014 President's Budget 
reflects the Air Force's commitment to protecting science and 
technology funding as a share of our total resources. This includes 
investments in advanced research and development in many areas 
including basic research, directed energy, information technology, 
cyber, materials, aerospace systems, human effectiveness, sensors, 
munitions, and space. Today's strategic environment presents a broad 
range of threats and an unpredictable set of challenges, ranging from 
non-state actors to nuclear armed nations. We must continue to invest 
in our science and technology base to ensure that the future balance of 
power remains in our favor.
    To maintain an airpower advantage, we must ensure that we remain 
the most technically proficient, best-educated, and best-trained air 
force in the world. Changing trends in technology and a dynamic threat 
environment dictate that we reserve resources for advanced academic 
degrees in science, technology, engineering, and math (STEM), nuclear, 
and cyber education. These developmental educational requirements are 
necessary to ensure the development of future capabilities. As such, 
these educational programs will be protected to the extent possible.
    Mr. Langevin. Mr. Secretary, the U.S. Air Force announced late last 
year that certified New Entrants would be allowed to compete along with 
ULA for up to 14 rocket cores through FY17. Given that the incumbent 
provider currently receives over $1.2B annually in cost-plus payments 
under the Launch Capability contract line, how does the Air Force 
intend to ensure that the competition will occur with a level playing 
field when the incumbent competes against New Entrants? What actions 
will the Air Force take to ensure that the incumbent does not offer 
artificially low prices in the competition, given that the Government 
is providing payments for all of its fixed costs?
    Secretary Donley. The specific method in which the current 
incumbent Evolved Expendable Launch Vehicles (EELV) Launch Capability 
(ELC) and EELV Launch Services (ELS) costs will be competed with new 
entrants has yet to be determined, but will be addressed in the source 
selection plan. The details of the competition are being developed and 
will ensure the best value for the Government among all certified 
providers and will be conducted in accordance with Federal Acquisition 
Regulations.

    Mr. Langevin. The Launch Capability cost-plus contract structure 
was instituted in 2006 as a measure to ensure ``assured access'' for 
the Government by maintaining the industrial base capacity of the only 
remaining domestic company capable of conducting space launch. However, 
as the Air Force recognized by opening launches to competition, there 
now exist new American providers in the market, providing redundancy 
and lowering costs. Once multiple providers are competing for all 
launches in the program, does the DOD have a plan to phase out the ELC 
cost-plus contract after the current round of acquisitions?
    Secretary Donley and General Welsh. Given that the Air Force and, 
to some extent, the National Reconnaissance Office currently fund 
infrastructure and other facility support costs for the incumbent 
provider, can you help us understand why the funding of fixed costs 
requires a cost-plus contract? What requirements are unknown?
    The Phase 1 Evolved Expendable Launch Vehicles (EELV) Launch 
Capability (ELC) efforts will continue under the cost plus incentive 
fee (CPIF) construct. The EELV program requires operational flexibility 
to meet its National Security Space (NSS) mission. ELC provides the 
program flexibility to manage changes to mission requirements without 
requests for equitable adjustments or schedule penalties. Potential 
unknown requirements include launch slips due to satellite vehicle 
acquisition issues, first time integration delays, and anomaly 
resolution from a previous mission. The Air Force is examining options 
to restructure ELC to allocate appropriately the discrete and 
unambiguous costs to the launch vehicle and each individual payload 
customer. Our plan is to incorporate these adjustments into the Phase 1 
contract and consider them for future acquisition phases of the 
program.

    Mr. Langevin. General, in your view, what must the Air Force do 
next in order to ensure the total force--the Active, Guard, and 
Reserve--is coordinating the right cyber effects? Specifically, can you 
speak to the interactions of how the Guard, such as the 102nd Network 
Warfare Squadron in Rhode Island, can interact with the Air Force to 
support the global fight in cyberspace?
    General Welsh. The sudden growth in demand levied on all Services 
based on increased dependence on cyberspace and emerging threat 
profiles requires cooperation and innovative approaches to capitalizing 
on expertise across the Total Force. Proper balance across the Total 
Force will ensure sustained ability to meet mission requirements today 
and in the future.
    The Air Force already relies heavily on Guard and Reserve cyber 
units and has integrated them into its operations run by the 24th Air 
Force. For example, the Cyber Command Readiness Inspections conducted 
by the 102nd Network Warfare Squadron (NWS) (Rhode Island Air National 
Guard (ANG)) are a key pillar of the Air Force's network defense 
posture, and are tasked and tracked by the 624th Operations Center at 
Lackland Air Force Base, Texas. The Air Force leverages the Guard to 
fulfill its commitment to provide forces to U.S. Cyber Command's (USCC) 
new Cyber Mission Force construct. This construct will be the primary 
means through which USCC defends the Nation in and through cyberspace, 
and it integrates cyber effects to meet the combatant commanders' 
requirements. The 166th NWS (Delaware ANG), 175th NWS (Maryland ANG), 
and 262nd NWS (Washington ANG) augment active duty forces to meet the 
demand for these cyber teams. We plan to further develop this construct 
to determine the optimal integration of the Total Force into USCC's 
Cyber Mission Force. The Total Force Task Force (TF2) is exploring the 
integration of the Total Force into USCC's Cyber Mission Force.
    The Air Force also partners with the Air Force Reserve (AFR) in 
multiple cyber missions including cyberspace defense, cyberspace 
security, and cyberspace command and control. AFR is an integrated part 
of the Air Force's commitment to USCC. The Air Force Personnel Center 
and AFR are working together to identify the missions which best fit 
AFR strengths. Currently, AFR believes that the missions of cyberspace 
vulnerability assessment, cyberspace intelligence, surveillance, and 
reconnaissance, and offensive cyberspace operations are well-suited for 
the AFR. These missions require a high level of experience that are 
best suited to AFR's strengths of retaining highly skilled personnel, 
low turn-over, and allowing members to leverage their civilian 
experience.
    Mr. Langevin. General, are you confident in the ability of our 
networks, sensors, and datalinks to operate in the complex cyber and 
electromagnetic environment likely to be a part of any future anti-
access/area denial battlespace, and are you satisfied with your ability 
to train to cope with such challenges? What can we do to help the Air 
Force train as part of the joint force to operate in such highly 
contested environments?
    General Welsh. The ideas behind anti-access/area denial are not 
new. Adversaries have tried to keep each other out of areas since the 
beginning of warfare. But what is new is that our adversaries (state 
and non-state actors) can challenge us in the air, at sea, in space, 
and on land simultaneously. They can use cyberspace independently as 
well as to enhance attacks everywhere. Our operations will likely be 
heavily and comprehensively contested--something that we have not faced 
in decades. Meeting these challenges will require new capabilities and 
tactics so that we can conduct missions across the range of military 
operations. Together with the other Services, we are aggressively 
preparing to operate in this future environment by investing in and 
exercising new capabilities and tactics. I am confident that we can do 
this with our planned investments, enhanced by the innovation of our 
Airmen. This will help us meet our strategic mission to project power 
in even the most challenging and contested environments.
    Future adversary strategies could include both cyberspace and 
electromagnetic attacks to disrupt and deny our networks, sensors, and 
data links. We are working to field systems that seamlessly exchange 
information across all joint platforms, sensors, and weapons in a 
heavily contested environment. We will not be satisfied until we have 
this infrastructure in place and have trained combat forces who can 
conduct effective kinetic and non-kinetic fires against the most 
capable adversaries, in the most challenging environments. This will 
enable our Air Force, as part of joint forces, to provide an integrated 
and war-winning response.
    The Air Force recognizes the importance of developing capabilities 
and tactics, techniques, and procedures to operate in contested 
environments. The Air-Sea Battle concept was developed to meet the 
challenges of operating in current and future contested environments 
under heavily challenged conditions. Through implementation of this 
concept, the Air Force is partnered with our sister Services to explore 
the development of advanced capabilities and tactics in order to 
prevail now and in the future. This effort involves the integration of 
capabilities in the air, at sea, and on land, and includes cyber and 
the electromagnetic environment. We are also actively involved in 
integrating these capabilities into future exercises, including both 
the Air Force's future capabilities and Unified Engagement wargames.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. We understand that the Air Force has a requirement for 
1900 tactical fighter aircraft, and that that inventory would meet the 
requirements of the National Military Strategy with moderate risk. Last 
year, the Air Force did not predict any fighter inventory shortfalls 
through 2030. However, with sequestration in fiscal year 2013, some 
aircraft or engines that had been planned for depot modifications may 
not be inducted. How will sequestration affect the tactical fighter 
inventory and do you expect any near-term or short-term tactical 
fighter inventory shortages as a result? We also understand that the 
Air Force has requirements for both capability and capacity in its 
tactical fighter inventory. Do you have any concerns about the 
capabilities or capacities of the tactical fighter inventory to meet 
the requirements of the National Military Strategy?
    General Welsh. Sequestration itself will not affect the tactical 
fighter inventory, but we are concerned that sequestration will result 
in significant readiness shortfalls that will have an impact on our 
ability to meet future warfighter requirements. Sequestration does 
impact the fighter force by delaying field-level maintenance activities 
and depot inductions, reducing depot production, and slowing down 
modification and modernization efforts. We estimate that the existing 
depot backlogs alone will take up to five years to correct. Analysis of 
warfighting requirements in the defense strategy and increased aircraft 
service life expectations allowed the Air Force to reduce fighter force 
structure capacity from 2,000 total active inventory (TAI)/1,200 
primary mission aircraft inventory (PMAI, or combat-coded) to 1,900 
TAI/1,100 PMAI. This force meets the National Military Strategy, but 
with greater aggregate risk. The capability of this force against 
potential future adversaries is reliant upon planned modernization 
efforts to be able to meet high-end threat
scenarios.
    Mr. Turner. In the FY budget request, there seems to be a 
significant reduction in Air Force UAS accounts compared to last year. 
This seems counterintuitive based on the critical role ISR performs and 
the demand from the combatant commanders. In your opinion, does the FY 
14 budget request meet combatant commander requirements for unmanned 
aerial ISR systems?
    General Welsh. The fiscal year 2014 budget request meets the Joint 
Staff adjudicated requirements levied on the Air Force to support the 
combatant commanders. This includes achieving the Secretary of Defense-
directed 65 combat air patrols by May 2014 and continuing Global Hawk 
Block 30 operations through calendar year 2014. The remotely piloted 
aircraft (RPA) systems are a key element of airpower, and we will 
continue to ensure that we have the right mix of systems, both manned 
and unmanned, as we continue to work through the challenges of 
sequestration. The Air Force remains committed to leading the world in 
all aspects of airpower, including RPAs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. To ensure that adequate aircraft are available for 
training and operations at Luke, as well as to provide certainty for 
the level of operations and investment at Luke for the F-35A mission, I 
would ask the Air Force to reach a favorable decision in Calendar year 
2013 on the assignment of Squadrons 4-6. This would allow environmental 
reviews and infrastructure investment to be queued up. Would you 
provide me with your thoughts, and hopefully assurances, that this 
objective can be met this year?
    Secretary Donley. The August 1, 2012, record of decision (ROD) 
assigns 72 F-35A aircraft to Luke Air Force Base and stipulates that 
the next basing decision will be made no later than December 2014. 
Since the ROD was signed, several foreign nations have shown an 
interest in purchasing aircraft through the foreign military sales 
(FMS) program. These foreign nations have requested to base their 
initial training programs in the United States. This drives another Air 
Force basing decision, and is linked to the next training basing 
decision for the U.S. Air Force aircraft. Given that the first FMS 
aircraft is scheduled to be delivered in fiscal year 2016, it is not 
appropriate to make the basing decisions for the FMS aircraft and the 
additional U.S. Air Force training aircraft in calendar year 2013.

    Mr. Franks. Secretary Donley and General Welsh, as you may know the 
DOD relies on the commercial electric grid for 99% of its electricity 
needs. That concerns me because the commercial bulk power grid is 
incredibly vulnerable to EMP and severe space weather. Can you please 
update me on what the Air Force is currently doing to protect your 
assets and other aspects of the power grid from this growing threat?
    Do you feel that the power and electricity needed to carry out your 
mission is important enough to require those commercial providers of 
the power grid to successfully harden their grid from severe space 
weather or manmade electromagnetic pulse. Can the DOD require that of 
commercial providers of the grid? Do you feel that this issue is 
important enough that legislation is needed to force the hand of 
industry to act?
    Secretary Donley and General Welsh. The deployment and sustainment 
of military forces are increasingly a function of interdependent supply 
chains and privately owned infrastructure within the United States and 
abroad. However, in many cases, this infrastructure falls outside 
Department of Defense (DOD) direct control. The Air Force's dependency 
on the commercial power grid represents a critical asymmetric 
vulnerability that must be addressed through partnerships with 
industry, state, and local governments. The Air Force conducts critical 
asset risk assessments (CARA) to identify key critical assets and 
supporting infrastructure. Identification of critical assets focuses 
within installation boundaries, and extends to the first critical 
infrastructure nodes outside perimeters. The Air Force has identified 
over 900 critical assets, and 62 of those are Tier 1 assets, where loss 
or degradation of energy would impact strategic-level missions. Of the 
62 Tier 1 assets, 22 of them are defense critical assets (DCA); the 
loss of a DCA would result in mission failure for a DOD capability. The 
Air Force is also a member of the Department of Defense's Energy Grid 
Security Executive Council (EGSEC), which exists to discuss grid 
concerns across the Services and coordinate with other federal 
agencies. As the EGSEC chair, the Assistant Secretary of Defense for 
Homeland Defense & Americas' Security Affairs would be in the best 
position to provide information on the need for future legislation.
    It does not appear that the Air Force can require commercial 
providers to harden their grid from severe space weather or man-made 
electromagnetic pulse. As discussed in its recent Energy Strategic 
Plan, the Air Force supports the concept of improved resiliency and 
increased energy security and will continue to work to ensure that it 
has the ability to recover from energy interruptions and sustain the 
mission. By reducing the energy needed and diversifying generation and 
distribution options, the Air Force puts less reliance on an already 
vulnerable electrical grid
system.

    Mr. Franks. As the Air Force looks down range--is there a benefit 
to have a blended wing of combat-coded and training F-35As at Luke AFB 
to support both the F-35 training mission and contingency operations, 
given that USAF is seeking increased efficiencies in this constrained 
budget environment?
    General Welsh. The addition of combat-coded F-35As at Luke Air 
Force Base would drive different training requirements and different 
weapons storage facility requirements, ultimately changing the use of 
the range airspace and requiring a new environmental impact statement. 
Combining both training and combat-coded aircraft at one location would 
also force different inspection timelines and criteria onto an already 
dynamic base with two F-16 foreign military sales squadrons. This adds 
complexity for little benefit, and a blended wing at Luke AFB would not 
result in increased operational efficiency.
    In addition, future decisions concerning Luke AFB may expand 
training operations to include three additional F-35A squadrons, which 
would fall within the constraints of the environmental impact 
statement. Luke AFB also is under consideration as the location of F-
35A partner pilot training, to include participants from seven 
countries. This would make Luke AFB a critical component of U.S. Air 
Force and international F-35A training. The Air Force's only other F-
35A training location is Eglin AFB, which is currently limited to 24 F-
35As. Program and service analysis shows that all of these squadrons 
need to be used for pilot training in order to meet Air Combat Command 
demands at combat units.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. SHUSTER
    Mr. Shuster. I understand that since 2001 at least 8 CRAF carriers 
have gone out of business. In 2012 alone, 5 CRAF carriers declared 
bankruptcy. I am concerned that if we lose these carriers, we may not 
be able to accomplish our operational plans and objectives due to a 
lack of available airlift capacity, particularly for cargo carriers. 
What steps is the Air Force taking in conjunction with Air Mobility 
Command to maintain this asset through decisions to increase cargo 
movements for CRAF carriers whenever possible?
    Secretary Donley. Air Mobility Command is in the final phase of a 
two-phase post Operation ENDURING FREEDOM Civil Reserve Air Fleet 
(CRAF) study which we hope to complete in calendar year 2013. This 
expansive body of work will assess the near-term health and future 
viability of the CRAF program. Upon the study's conclusion, we will 
have formulated the recommendations for the most effective methodology 
for restructuring policy, practices, and procedures for the CRAF that 
most accurately reflect the volatile business environment. We have 
integrated our industry partners throughout this process to fully vet 
their concerns, ensuring we maintain a collaborative approach. 
Furthermore, we've been proactive by providing our industry partners 
requirements and forecasts of the drawdown period via semi-annual 
executive working groups.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. With the F-35 plagued by continual cost overruns, some 
suggest that we could achieve significant savings by cancelling the 
``B'' variant. I strongly disagree with this argument. But I am 
interested to know how cancelling a variant would change the load on 
Air Force F-35s and whether you anticipate that such cancellation would 
require additional procurement down the line. And how would such a 
cancellation change mission cooperation between the Air Force and 
Marine Corps?
    Secretary Donley. The Air Force currently plans to procure 1763 F-
35As to replace F-16s and A-10s. The consequences of cancelling the the 
``B'' variant are speculative, but could include an increased load on 
Air Force F-35s and the need for additional procurement in the future. 
Cancelling the ``B'' variant would result in the Department of the Navy 
and the Office of the Secretary of Defense, in coordination with the 
Joint Program Office and the Air Force, determining the best way 
forward to support Marine and Department of Defense requirements. 
Specific changes to F-35A procurement numbers and mission cooperation 
between the Air Force and the Marine Corps would flow from that 
decision.
    It is important to also note that if the Marine Corps canceled 
production on the ``B'' variant, Unit Recurring Flyaway (URF) costs 
would increase for the remaining production aircraft for the Air Force, 
the Department of Navy, international partners, and foreign military 
sales partners. Additionally, development costs and production would 
continue for the ``B'' variant, despite a withdrawal by the Marine 
Corps, as the ``B'' variant is being purchased by the United Kingdom 
and Italy. The ramifications of this decision, to include an increase 
in URF, could cause these two partner nations to reassess their 
commitment to the program.

    Mr. Carson. While it is clearly past time for us to end our combat 
mission in Afghanistan, we know that our departure will not also mark 
the end of terrorist presence and operations in the region. So, it 
seems likely that we will need to continue flying missions to target 
terrorist leaders. How will the conclusion of combat missions in 
Afghanistan impact our ability to fly drone missions in the 
Afghanistan-Pakistan border region? What efforts are being made now to 
ensure our continued access to this region after 2014?
    General Welsh. As demonstrated by the Chicago Summit in 2012, the 
United States and our partners in the International Security Assistance 
Force are committed to the goal of preventing Afghanistan from ever 
again becoming a safe haven for terrorists that threaten Afghanistan, 
the region, and the world. Our counter-terrorism mission in this region 
will continue after the conclusion of our combat activities in 2014, 
but any potential basing strategies and locations inside Afghanistan 
are still being discussed as part of the ongoing bilateral security 
agreement currently being negotiated between the United States and 
Afghanistan. To ensure access and to provide the greatest number of 
basing options in support of the counter-terrorism mission, we are also 
investigating potential ways to increase the range and endurance of our 
unmanned aircraft in the event in-country basing becomes an issue.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SCOTT
    Mr. Scott. We know the importance of our A-10 aircraft fleet which 
provides close air support for ground personnel and the need for the 
fleet to have new wings to complete this critical mission. In FY13, 
Congress appropriated $226.5M for acquisition of wings for the A-10 
aircraft.
    a. How many wings did the Air Force acquire or intend to acquire 
before the end of FY13?
    b. When does the Air Force intend to purchase additional A-10 wings 
with the remainder of the FY13 appropriation?
    c. There are 283 A-10 aircraft in the Total Air Force inventory. It 
is Congress' understanding that all aircraft require new wings, and the 
current contract for wings expires in FY16. Through FY13, Congress has 
appropriated funding for approximately 181 wings. What is the Air 
Force's plan to acquire wings in order to refit the entire 283 aircraft 
fleet?
    General Welsh. In fiscal year (FY) 2013 Congress appropriated a 
total of $251.1M (Aircraft Procurement, Air Force (APAF)) for the A-10 
program, PE 0207131F. Within the $251.1M (APAF) total, $161.2M was for 
``retain A-10 force structure.''
    a. The Air Force intends to acquire 50 enhanced wing assemblies 
(EWA) in FY13, which is the maximum allowed annually per the existing 
contract. This will bring the total number of EWAs procured to 167.
    b. The Air Force intends to use the remainder of its FY13 APAF 
funds to purchase 14 additional EWAs in FY14. These funds will be added 
to FY14 APAF funds which are currently slated to purchase nine EWAs. 
This will bring the total number of EWAs purchased in FY14 to 23, and 
the total program to 190.
    c. The Air Force plans to acquire a total of 190 EWAs by the end of 
FY14. The Air Force's contract with Boeing allows it to acquire as many 
as 50 EWAs in both FY15 and FY16. The Air Force has the option to 
acquire the remaining 93 EWAs over those two years to complete EWA 
acquisitions for the entire 283 aircraft fleet.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. The Air Force Energy Plan recognizes the need to 
increase supply in light of the fact that avaiation in FY 11 
represented 86% of energy consumption for the Air Force at $8.3 
billion. With this in mind, would Air Force leadership be supportive of 
legislative efforts to pilot a program at Scott Air Force Base to do 
research and develop of effective biofuels for use throughout the 
force? With Air Mobility Command being headquartered at Scott AFB this 
would appear to make perfect sense.
    Secretary Donley and General Welsh. The Air Force has a global 
aviation mission and must have assured access to reliable supplies of 
energy to meet operational needs. Alternative fuels are a critical part 
of that effort and helps the Air Force address availability, price 
volatility, and energy security. Since 2006, the Air Force has been 
working to test and certify its fleet on alternative aviation fuels, 
led by the Alternative Fuels Certification Office located at Wright-
Patterson Air Force Base (AFB), Ohio. Based on an evaluation of market 
conditions and discussion with commercial partners, the Air Force has 
evaluated three processes: Fischer-Tropsch (FT), hydro-processed 
renewable jet (HRJ), and alcohol to jet (ATJ). FT and HRJ have been 
evaluated in a 50/50 blend with traditional JP-8 and have been fully 
certified for the entire fleet. With the current efforts already 
underway at Wright-Patterson AFB, the Air Force does not feel a similar 
program at Scott AFB is necessary and would not be the best use of 
taxpayers' dollars.
    Mr. Enyart. During your testimony you stated there was 20% excess 
capacity that needed to be addressed through a BRAC process. How much 
of this excess capacity would come from the Active Duty versus the 
Reserve and National Guard Component? In addition, how much of this 
excess capacity would come from CONUS versus OCONUS installations?
    Secretary Donley and General Welsh. Parametric techniques used to 
analyze aggregate assessment of excess capacity in 2004 indicated that 
the Department of Defense had 24 percent excess overall relative to the 
force-structure plan developed by the Joints Staff. Because BRAC 2005 
eliminated only about 3 percent of the Department's capacity (very 
little being Air Force infrastructure) and since then, the Air Force 
has retired approximately 500 aircraft and reduced its total manpower 
by approximately 7 percent, we believe we have significant excess 
today. The Air Force has not conducted a capacity analysis and 
therefore cannot specify a percentage of infrastructure reduction 
needed from the Components or the locations from which that reduction 
would come. The Air Force is participating in the Office of the 
Secretary of Defense-led European Infrastructure Consolidation study 
and will determine if there are opportunities for reducing its European 
infrastructure. If legislation is enacted authorizing another round of 
base realignment and closure for United States installations, the Air 
Force will base its analysis on an approved force structure plan and 
will evaluate all bases equally to determine what bases may be 
candidates for closure or realignment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. The goal of the Air Force acquisition strategy is to 
promote competition. While it may be fair to give new entrants an 
opportunity to become certified, to what degree does the Air Force feel 
it is the Air Force's responsibility to ensure that new entrants can 
meet the certification requirements?
    Does the Air Force intend to fund development of any changes 
necessary for new entrants to meet certification or capability 
requirements for EELV payloads?
    Secretary Donley and General Welsh. The Air Force does not intend 
to fund the development of new entrant launch vehicle systems or 
development of any changes necessary for new entrants to meet 
certification or capability requirements for Evolved Expendable Launch 
Vehicle (EELV) payloads. Space vehicle (SV) mission specific 
requirements, should they arise in the future, will be included as part 
of any competitive launch service, and funded with procurement funding 
by the SV program, as they are for current EELV missions. The New 
Entrant Certification Guide (NECG) outlines the process and 
requirements that must be met for new entrants to become certified to 
compete for National Security Space missions on the EELV program. The 
NECG makes it clear that the Government is not funding the development 
of new entrants' launch systems.
    The Department will issue an early integration contract with any 
new entrant provider who has submitted a statement of intent in 
accordance with the Air Force NECG and has successfully launched their 
first launch vehicle of the configuration intended to meet 
certification. These early integration efforts will help the new 
entrant provider and the potential SV programs understand the 
environments (shock, vibration, acoustic, etc.) and performance 
capabilities of each system and begin development of interface control 
documents.
    Mr. Brooks. Does the Air Force believe a new entrant must meet all 
requirements in the EELV Operational Requirements Document (ORD) and 
Systems Interface Specification (SIS)? If not, what requirements are 
new entrants being allowed to ignore and please explain the rationale?
    Secretary Donley and General Welsh. The Air Force published a New 
Entrant Certification Guide that states, ``a new entrant must meet . . 
. specific reliability and interface requirements,'' and comply with 
the ``standard payload interface''. To encourage competition the Air 
Force is planning to compete missions which can be potentially launched 
by new entrants in the fiscal year (FY) 2015-2017 timeframe. Not all 
ORD II key performance parameters (KPP) will have to be met for this 
potential competition. In this timeframe, KPPs that new entrants may be 
unable to meet are mass to orbit and standard launch pads. However, all 
KPPs will have to be met in order to compete for the next phase 
starting in FY18. The Evolved Expendable Launch Vehicles standard 
interface specification (SIS) outlines the standard mechanical and 
electrical interfaces as well as the required launch environments to 
include shock, acoustic, and thermal envelopes of multiple launch 
vehicle configurations. Any new entrant must meet the requirements of 
the SIS prior to certification completion. Therefore, existing space 
vehicles (SV) that currently meet the SIS, such as GPS III, should not 
require modification as the SV is already compatible with the SIS 
requirements. In the event modifications need to be made to the launch 
vehicle to accommodate a SV, those mission unique modifications will be 
incorporated into the price of the launch service in a manner 
consistent with how we procure launch services from the incumbent.
    Mr. Brooks. Has the Air Force or DOD done an independent cost 
estimate on new entrants to launch an EELV class mission? Please 
provide the estimate.
    Secretary Donley and General Welsh. No, neither the Air Force nor 
DOD has done an independent cost estimate on new entrants to launch an 
Evolved Expendable Launch Vehicle-class mission. The Government does 
not yet have the necessary insight into the new entrant's costing/
accounting processes to complete a formal assessment of new entrant 
costs.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. NUGENT
    Mr. Nugent. After 4 years and $40 million, the CHAMP program had a 
Joint Capability Technology Demonstration last year. The Air Force 
described this JCTD as ``a very successful flight test.'' You have 
developed and now tested a working capability that can knock out all 
the electronics of an enemy target without doing any physical damage to 
the facility or people. This is a remarkable achievement that has 
produced a nonlethal weapon with broad application that is cheap to 
make and expensive for our potential adversaries to defend.
    Why are you not requesting funding to get CHAMP beyond the research 
phase and out to the Combatant Commanders? The FY14 budget request is 
for $209,000 less than this year to conduct an Analysis of Alternatives 
on a new reusable platform. Why are you not finishing development on 
the platform that you have and works, while asking Congress for the 
money to begin procurement?
    Secretary Donley. As this was an S&T demonstration, the JCTD was 
limited in scope and did not account for weapon survivability and 
effects delivered in an operational relevant threat environment. A 
CHAMP JCTD final report is currently being drafted by United States 
Pacific Command. The Air Force will use this final report and any 
additional information/data from the demonstration to feed the Air 
Force's non-kinetic counter electronic (NKCE) weapon concept of using 
HPM technology to affect real world electronic equipment in an 
operationally relevant threat environment. The Air Force is completing 
the NKCE comprehensive concept analysis (CCA) in fiscal year (FY) 2014. 
The CCA will define the technological characteristics required to 
integrate HPM technology into a weaponized platform and be survivable 
in an operational relevant threat environment long enough to deliver 
the intended effects. CHAMP, along with other potential solutions, will 
be part of NKCE analysis of alternatives (AoA) notionally scheduled to 
take place during FY15.
    FY13 and FY14 funds supporting these analyses has been requested in 
a system development and demonstration program element (PE) 0604429F, 
Airborne Electronic Attack.
    The referenced decrease of $209,000 occurs in PE 0603605F, Advanced 
Weapons Technology. This S&T PE was the primary source of funding for 
the CHAMP JCTD. Since the CHAMP S&T program has been completed, the S&T 
funding requirements for further counter-electronics research and 
technology development in FY14 are less than requested for FY13.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. The United States Government has performed four 
independent studies on the C-130 AMP solution between 1998 and 2008 and 
found it was the most cost-effective solution to modernize the C-130 
fleet and at the same time, consolidate the multiple configurations and 
increase equipment reliability and availability. It appears from the 
FY14 President's proposed budget that a new start effort, named 
Minimize CNS/ATM option, has been identified. Will this new start 
provide less capability than the current program of record? Is the 
current Institute for Defense Analyses (IDA) study evaluating the C-130 
AMP program of record against the Minimize CNS/ATM option identified in 
FY 14 PB document?
    Secretary Donley. The fiscal year (FY) 2014 Minimize C-130 
communication, navigation, surveillance/air traffic management (CNS/
ATM) program is a less robust avionics modification program than the 
current program of record. The Minimize program is an airspace 
compliance only program to ensure the C-130H fleet meets the Federal 
Aviation Administration's January 2020 CNS/ATM mandate. The current IDA 
study, which will be delivered to Congress in October 2013, will 
evaluate all three C-130H modification alternatives: C-130 Avionics 
Modernization Program, FY13 Optimize Legacy C-130 CNS/ATM, and FY14 
Minimize C-130 CNS/ATM.
    Mr. Bridenstine. At the Air Force posture hearing in FY 12, then-
Chief of Staff of the Air Force General Norton Schwartz commented that 
``the Air Force C-130 AMP provides military capability equal or greater 
than alternative programs and at less cost than those programs.'' What 
requirement or mission changed that would allow for a change of 
direction of this magnitude? Has an acquisition strategy been developed 
for the FY14 Minimize CNS/ATM new start option?
    Secretary Donley. The C-130 mission and requirements have not 
changed. Many of the upgrades with Avionics Modernization Program (AMP) 
dealt with modernization of the aircraft and enhancing its viability. 
Given the current fiscal environment and the impacts of sequestration, 
the Air Force does not have sufficient resources to fund the AMP 
program. The Air Force has decided to pursue a lower cost program that 
provides the minimum required upgrades for communication, navigation, 
surveillance/air traffic management (CNS/ATM) compliance.
    The Air Force, in compliance with Section 143 of the fiscal year 
2013 National Defense Authorization Act, has not taken ``any action to 
cancel or modify the avionics modernization program for C-130 
aircraft.''

    Mr. Bridenstine. The FY14 President's Budget states, ``with 
termination of C-130 Avionics Modernization Program (AMP), the Minimize 
C-130 Communication, Navigation, Surveillance/Air Traffic Management 
(CNS/ATM) option provides minimal airspace compliance focused program 
to modify 184 C-130H aircraft.'' As directed by the FY13 NDAA, have you 
begun the Institute for Defense Analyses (IDA) study and what is the 
current status and projected completion date to report back to the 
committees? Has there been any analysis of long-term cost savings the 
current C-130 AMP provides versus the proposed for FY 14 Minimize CNS/
ATM
capability?
    Secretary Donley and General Welsh. The directed study was placed 
on contract with the Institute for Defense Analysis (IDA) on March 1, 
2013. IDA is currently in the data collection/clarification phase of 
the study and met with appropriate military and defense industry 
organizations in May. The study plans to conduct life cycle cost 
comparisons for the three C-130H modification alternatives: C-130 AMP, 
fiscal year (FY) 2013 Optimize Legacy C-130 CNS/ATM, and FY14 Minimize 
C-130 CNS/ATM. We anticipate the study will be delivered to Congress in 
October 2013.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. As you know, last year's NDAA contained language that 
set up
a National Commission on the Structure of the Air Force; I believe last 
week the
committee actually named General Raymond Johns and Erin Conaton to the
commission.
    That Commission is tasked with the job of completing a 
comprehensive study of the structure of the Air Force to determine 
whether, and how, the structure be modified to best fulfill current and 
anticipated mission requirements for the Air force in a manner 
consistent with available resources.
    It would seem to me that we may be putting the cart before the 
horse here and we should be waiting until after this committee 
completes its job before we actually move any planes around.
    So, my question is why would the Air Force already start moving 
planes around before we have the recommendations of the Commission? It 
just doesn't make any sense.
    And if cost savings is the issue, then what is the point of having 
the commission at all?
    Secretary Donley and General Welsh. All Air Force force structure 
adjustments occurring in fiscal year (FY) 2013 were authorized by the 
FY13 National Defense Authorization Act (NDAA) and funded in the 
Appropriations Act (Public Law 113-6). In addition, these FY13 actions 
were part of a long-term plan submitted by the Air Force which included 
force structure adjustments through FY18. This plan, as adjusted by 
subsequent dialogue with the Congress prior to and after enactment of 
the FY13 NDAA, is the basis of the proposed Air Force force structure 
adjustments in the FY14 President's Budget submission.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BARBER
    Mr. Barber. General Welsh, thank you for your service to our Nation 
and your testimony today. I know you agree that we must be good 
stewards of the taxpayers' money. Sustaining our current inventory is 
one way the Air Force is doing this, and I applaud you for it. For 
example, the budget mentioned maintaining the C-130 for airlift 
capability rather than procuring a new, more expensive airplane. The 
budget also noted the Department will retain F-15 and F-16 fighters to 
fill a critical role in the Air Force's global strike core function. 
While we greatly anticipate the continued procurement and fielding of 
the F-35, the fact remains that the Air Force currently lacks the 
necessary fleet of F-35s to replace the A-10. Yet, also within the 
budget, the Department continues with its plans to either shift to the 
Air Force Reserve, or retire, the A-10. The President's budget requests 
no funding for A-10s beyond FY14 even though the Air Force continues to 
transition A-10s to the Reserve. In my district, we have Davis-Monthan 
Air Force Base that is home to the 354th Fighter Squadron, a squadron 
of A-10s. They just returned from Afghanistan this week. Wouldn't you 
agree that these pilots, and the A-10s that they fly, provide a 
critical close air support role not readily filled by another airframe? 
What measures is the Department undertaking to ensure sufficient 
numbers of A-10s are kept mission-ready and able to support our forward 
forces and Combatant Commanders?
    General Welsh. The A-10 Thunderbolt II has served the country very 
well for the last 30 years. Through two wars in Iraq and for the last 
12 years in Afghanistan, the A-10 has been operated by all of the 
Components--the Active Duty, Guard, and Reserve--and has been a 
significant battlefield force multiplier. The A-10 continues to undergo 
a series of airframe structural changes to ensure viability, has 
completed Precision Engagement (integration of data links with a 
cockpit/avionics suite upgrade), carries advanced targeting pods, and 
employs the latest in guided weapons. The Air Force will continue to 
invest in the A-10 for the foreseeable future, while still planning for 
the F-35 replacement process to fulfill future close air support (CAS) 
needs. We continue to train A-10 pilots and our budget ensures that the 
requisite number of A-10s necessary to support combatant commander 
requirements are available. Until we have sufficient numbers of F-35s, 
the Air Force intends to keep the A-10 viable and combat-ready.
    In short, the Air Force is ensuring A-10 availability, reliability, 
and maintainability with procurement of enhanced wing assemblies, 
scheduled structural inspections, replacement of aging fuselage 
longerons, and operational equipment upgrades. Combined, these efforts 
extend the A-10 service life to 14,000 hours. The A-10 will be kept 
operationally viable through software suite development that enhances 
the capabilities of its targeting pods and weapons upgrades. The Air 
Force is equipping the A-10 with a Helmet Mounted Cueing System to 
satisfy an Air Force Central Command (AFCENT) urgent operational need. 
Overall, these efforts ensure our A-10s are kept at a mission-ready 
status and are able to support our forward forces and combatant 
commanders. As the Air Force reallocates aircraft within its 
Components, the A-10 will continue to provide CAS as it has for the 
last 30 years, no matter where the A-10 resides--the Active Duty, 
Guard, or Reserve.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. NOEM
    Mrs. Noem. Since cost savings will obviously be the goal of any 
future BRAC Congress would authorize, how important is proximity to 
military training areas--especially considering cost of fuel for ground 
transport and cost per flying hour?
    Secretary Donley and General Welsh. Developing Airmen with a 
warrior ethos and an expeditionary mentality requires a robust and 
flexible training infrastructure. Basic and special skills training 
require diverse industrial, academic, and support facilities. Mission-
oriented training requires airspace and ranges, ground maneuver areas, 
as well as simulators and other training aids. The Air Force will 
evaluate each of these areas during capacity analysis and Military 
Value determination, and shall retain and invest in installations that 
rate high in those areas.
    One of the Air Force basing principles used during previous base 
realignment and closure (BRAC) processes was maintaining flying 
squadrons within operationally efficient proximity to Department of 
Defense controlled airspace, ranges, military operations areas, and 
low-level routes. The Air Force must keep ranges and airspace relevant 
to our missions and develop basing strategies that use them 
efficiently.
    During previous rounds of BRAC, as we determined the Military Value 
of an installation, Criterion 1: Current/Future Mission included 
proximity of ranges as a geo-locational attribute. We anticipate this 
attribute will continue to be an important aspect when determining 
Military Value.
    Mrs. Noem. In any future BRAC, will the Air Force focus on 
eliminating any particular category of excess base infrastructure, more 
than others?
    Secretary Donley and General Welsh. The Air Force has no 
installation or category specific plan at this time, and will comply 
with any future authorizing legislation and Defense Department policy. 
Should Congress authorize another round of base realignment and 
closure, all United States installations will be considered for 
realignment or closure. The Air Force will conduct the required 
analysis to identify the infrastructure necessary to satisfy 
operational and support requirements, with a focus on closing unneeded 
installations and eliminating excess infrastructure.
    Mrs. Noem. If the Air Force believes it has excess installation 
capacity and needs to close some bases or consolidate certain 
activities, do you think a least disruptive approach to our National 
Security readiness would be to first focus on consolidating those bases 
that primarily only have service support functions, such as logistical 
centers or military schools, rather than seeking to close bases that 
house fighter or bomber wings?
    Secretary Donley and General Welsh. An authorized base realignment 
and closure process would provide the only effective way to reduce 
excess infrastructure in the United States and under that process the 
Air Force would consider all bases equally.

                                  <all>

</pre></body></html>
